                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                        Audit of Department of State

                                       Use of Consular Fees Collected

                                 in Support of the Border Security Program


                                            Report Number AUD-FM-12-39, August 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                 UNCLASSIFIED



Acronyms

CA         Bureau of Consular Affairs
CBJ        Congressional Budget Justification
CWSS       Consular Workload Statistical System
DS         Bureau of Diplomatic Security
DV         Diversity Immigrant Visa
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
H&L        H and L Visa
ICASS      International Cooperative Administrative Support Services
IV         Immigrant Visa
MRV        Machine Readable Visa
OBO        Bureau of Overseas Buildings Operations
OIG        Office of Inspector General
RM         Bureau of Resource Management
RM/BP      Bureau of Resource Management, Office of State Programs, Operations, and
              Budget
TDY        temporary duty
U.S.C.     United States Code
WHA        Bureau of Western Hemisphere Affairs
WHTI       Western Hemisphere Travel Initiative
WSP        Worldwide Security Protection




                                 UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents 

Section                                                                                                                                  Page


Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................3 


Objective……. .................................................................................................................................9 


Audit Results ..................................................................................................................................9 


           Finding A. OIG Could Not Determine Whether All Border Security Funds Were Used 

           in Accordance With Mission Priorities ................................................................................9 

           Finding B. OIG Could Not Determine How Some Border Security Funds Were Used 

           and Found That Other Funds Were Not Used in Accordance With Guidelines or 

           Financial Instructions.........................................................................................................17 


List of Recommendations ..............................................................................................................32 


Appendices 


           A. Scope and Methodology................................................................................................33 

           B. CA Post Allotment Funding Matrix ..............................................................................46 

           C. Bureau of Consular Affairs Response...........................................................................48 

           D. Bureau of Diplomatic Security Response .....................................................................52 

           E. Bureau of Resource Management Response .................................................................54 


Major Contributors to This Report ................................................................................................58 





                                                          UNCLASSIFIED

                                              UNCLASSIFIED


                                          Executive Summary
         The terrorist attacks against the United States on September 11, 2001, demonstrated the
importance of having a robust system to process visa requests from people wanting to enter the
United States. The National Commission on Terrorist Attacks Upon the United States1 reported
that the hijackers made detectable false statements on visa applications. Since those attacks
occurred, the complexity of consular operations has increased greatly. Currently, the
Department of State’s (Department) Border Security Program supports activities related to
consular relations, security, information resource management, and consular training. These
activities are needed to help secure America’s borders from terrorists, criminals, or individuals
whose presence in the United States would violate immigration law. The Department’s Border
Security Program relies on funding from six consular-related fees and surcharges.

        The purpose of this audit was to determine to what extent consular fees collected by the
Department were used during FY 2010 for mission priorities of the Border Security Program and
in accordance with Department guidelines. The Office of Inspector General (OIG) conducted
fieldwork for this audit at the Bureaus of Consular Affairs (CA), Resource Management (RM),
Western Hemisphere Affairs (WHA), East Asian and Pacific Affairs, South and Central Asian
Affairs, and Diplomatic Security (DS). OIG also conducted fieldwork at Mexico City, Mexico;
Beijing and Guangzhou, China; and New Delhi, India. In addition, OIG obtained additional
information from officials in Mumbai, India. During FY 2011, the Department transitioned the
funding for certain post expenditures to the International Cooperative Administrative Support
Services2 (ICASS) program with the intent of improving controls over the use of the border
security funds at overseas posts. OIG did not audit the new process, since it was not within the
scope period of the audit.

       OIG found that the Border Security Program did not have a centralized program
management structure. Although CA was considered the “lead bureau” for the Border Security
Program, it did not exercise authority to oversee all aspects of the program. In addition, OIG
found that the program-related roles and responsibilities were not clearly defined; funding
decisions were not based on prioritization factors; and overall accomplishments were not being
tracked. The Department also did not have sufficient guidance on the use of the funds and did
not have an adequate process in place to monitor Border Security Program expenditures.

        OIG could not determine whether the Department was using border security funds in
accordance with mission priorities because the Department did not have a detailed,
comprehensive program plan that identified Border Security Program priorities. OIG also could
not ensure that some border security funds were used in accordance with Department guidance
because some bureaus moved funds from border security accounts to general accounts, thereby
losing the funds’ identities.
1
  The 9/11 Commission Report: Final Report of the National Commission on Terrorist Attacks Upon the United
States, issued on July 22, 2004.
2
  According to the Foreign Affairs Handbook (FAH) (6 FAH-5 H-010, “ICASS Functions”), “ICASS is the principal
means by which the U.S. Government provides and shares the cost of common administrative support needed to
ensure effective operations” at overseas posts. ICASS “provides a full range of administrative services,” including
motor pool, purchasing and contracting, and accounting.
                                                   1
                                              UNCLASSIFIED
                                       UNCLASSIFIED




        For expenditures that it was able to test, OIG found that border security funds were
generally being used for consular-related activities. However, some expenditures were made for
items that did not comply with CA guidelines or other approved financial instructions.
Specifically, of the 431 expenditures, totaling about $2.1 million, tested from funds allotted to
posts by CA and regional bureaus, OIG found that 71 expenditures, totaling about $166,000,
were not made in accordance with CA’s formal guidelines or other approved financial
instructions and had not been approved separately by CA or the regional bureaus. Of the 30
expenditures OIG tested from funds allotted to posts by DS, OIG found that the expenditures
generally complied with DS-approved post spending plans.

        Of the 269 domestic CA expenditures tested, totaling about $497 million, OIG found that
187 expenditures, totaling about $280 million, were not spent in accordance with CA’s
guidelines or lacked sufficient documentation to determine how the funds were used. In
addition, OIG tested 35 domestic DS expenditures, totaling about $15.5 million, and found that
three expenditures, totaling approximately $3.4 million, were not made in compliance with DS
spending plans.

       OIG found that the individuals filling all of the overseas positions funded by the Border
Security Program were performing consular work. However, of the 57 consular positions tested
that were not funded by the Border Security Program, 55 individuals filling those positions were
performing work similar to individuals in positions funded by the Border Security Program. The
Department had not yet converted the 55 positions so that they would be funded from the Border
Security Program.

Management Comments

       In its draft of this report, OIG made seven recommendations. Six recommendations
pertained to improving the program management structure of the Border Security Program, and
one recommendation pertained to expenditures erroneously charged to the program.

        Specifically, OIG recommended that CA formalize its authority over the Border Security
Program and establish a program management structure that would include developing clear
roles and responsibilities for the parties involved in the Border Security Program, establishing
processes to prioritize funding requests, developing comprehensive goals, preparing
comprehensive guidance on the use of border security-related funds, and developing a
monitoring process to ensure funds are used in accordance with applicable guidelines. OIG also
recommended that DS refund $2.1 million erroneously charged to the Border Security Program.

        In its July 24, 2012 response (see Appendix C) to the draft report, CA agreed with the six
recommendations directed to it and indicated that it had begun addressing some of the
recommendations. For example, CA stated that it was “in the process of revising” the Foreign
Affairs Manual (FAM) to describe the Assistant Secretary’s responsibilities to oversee the
Department’s use of consular fee revenue, including the allocation of consular fees to other
bureaus. CA also stated that it had “revamped the budget formulation process” in FY 2011 to
include a review by CA’s Comptroller’s Office. CA plans to implement Service Level
                                                2
                                         UNCLASSIFIED
                                        UNCLASSIFIED


Agreements with bureaus to formalize roles and responsibilities and “the process for prioritizing
Border Security Program funding requests.” CA also stated that it is “significantly revising the
post allotment process, including updating the CA Post Allotment Funding Matrix.” In addition,
CA “recently created a bureau-wide internal review program, which focuses on financial
management.” Finally, CA stated that it had volunteered to be a “pilot bureau for the new multi-
year strategic planning requirements” developed under the Department’s Quadrennial Diplomacy
and Development Review.

       Based on the response, OIG considers the six recommendations directed to CA resolved,
pending further action. CA also suggested revisions to the report, which OIG considered and
incorporated as appropriate.

       In its June 18, 2012, response (see Appendix D) to the draft report, DS indicated that it
had performed additional research and determined that it had not charged the Border Security
Program for a number of invoiced items. As a result, according to DS, the Border Security
Program actually owed DS additional funds.

       OIG confirmed that DS had in fact provided documentation to CA to support this
conclusion. A CA official stated that CA had agreed to reimburse DS for the amount DS had
requested. Based on this information, OIG considers Recommendation 5 closed.

      In its June 14, 2012, response (see Appendix E), RM suggested revisions to the report,
which OIG considered and incorporated as appropriate.

       On May 18, 2012, WHA informally provided additional documentation by e-mail to
support certain exceptions that the audit had identified in Mexico City. OIG considered the
additional documentation and modified the reported exceptions as appropriate.

                                         Background

        The terrorist attacks on the United States in September 2001 underscored the importance
of consular work in today’s global environment. None of the measures in place at the time were
able to stop the terrorist attacks. The 9/11 Commission Report stated that the hijackers had made
detectable false statements on visa applications. The report also stated that at the time of the
attacks, the Department’s consular officers were not considered full partners in the national
counterterrorism effort. Since those attacks, the complexity of consular operations has increased
greatly. The purpose of the Department’s Border Security Program is to protect Americans
overseas and contribute to the security of the Nation’s borders. The Border Security Program is
intended to be a core element of the coordinated national effort to deny individuals who threaten
the country entry into the United States and to facilitate the entry of legitimate travelers. The
activities performed by the Department related to border security include the following:

          Adjudicating non-immigrant visa requests from foreign tourists, students, individuals
           conducting business, and Government officials at missions abroad.
          Screening and adjudicating persons seeking immigrant visas.
                                             3
                                        UNCLASSIFIED
                                                UNCLASSIFIED


              Providing routine and emergency assistance to American citizens overseas.
              Ensuring American travelers are aware of dangerous situations abroad.
              Adjudicating passport applications and issuing or denying passports to American
               citizens wanting to travel abroad.

       The Department’s Border Security Program supports domestic and overseas consular
operations and has five fundamental objectives:

              Make accurate and timely information available to personnel.
              Ensure worldwide, redundant connectivity.
              Furnish staff with modern equipment and software.
              Safeguard the integrity of consular processes.
              Provide sufficient qualified staff trained in consular processes and anti-fraud
               techniques.  

Consular Fees Collected and Retained

        The Department receives funds for consular operations, including staff salaries,
equipment, and supplies, from two major sources: funds appropriated by Congress and fees
collected for consular services that Congress permits the Department to retain. A CA official
stated that since FY 2008, the amount annually appropriated directly to CA through the
Diplomatic and Consular Programs appropriation has remained relatively stable at approximately
$320,000. These appropriated funds have historically been used for CA-managed administrative
overhead, including travel, training, and office supplies. In FY 2012, CA received an additional
$18 million in appropriated funds for salary costs that had been funded previously by regional
bureaus using appropriated funds. These salary costs will be funded from the Border Security
Program fees in the future.

        The Department also receives funds for consular services from fees that Congress permits
the Department to collect and retain and to apply directly to its operations. Consular fees consist
of charges for visa and passport services, as well as for other consular services provided.
According to the United States Code (U.S.C.),3 the head of each agency can prescribe regulations
establishing a charge for a service provided by the agency. Each charge should be fair and based
on the costs to the Government, the value of the service to the recipient, public policy or interest
served, or other relevant facts.

        The Department retains a portion of the consular fees that it collects and remits the
remaining portion to the U.S. Department of the Treasury. Prior to 1994, the Department did not
retain any of the consular fees collected. Subsequently, Congress authorized the Department to
retain Machine Readable Visa (MRV) fees to help fund consular operations related to border
security. Currently, the Department is also authorized to collect and retain other fees to fund




3
    31 U.S.C. § 9701, “Fees and charges for Government services and things of value.”
                                                     4
                                                UNCLASSIFIED
                                                  UNCLASSIFIED


consular-related activities. The amounts collected are treated as an offsetting collection4 for the
Department. However, the Department is not authorized to retain all of the consular fee revenue
it collects. For instance, in FY 2010, the Department collected approximately $2.62 billion5 in
fee revenue and was allowed to retain about 70 percent of the fees (or approximately
$1.8 billion). The remaining fees were remitted to the Department of the Treasury.

       The six consular fees and surcharges (referred to collectively as “fees”) that fund the
Border Security Program are shown in Table 1.

    Table 1. Department-Retained Consular Fees Used for the Border Security Program
         Type of Fee                                              Purpose of Fee
     Machine Readable            A fee charged for processing machine readable non-immigrant visas. These
     Visa (MRV)                  fees finance much of the Department’s Border Security Program.
     Western Hemisphere          A fee to cover the costs of meeting increased demand for passports as a
     Travel Initiative           result of WHTI. This program implements the requirements of the
     (WHTI) Passport             Intelligence Reform and Terrorism Prevention Act of 2004, which mandates
     Surcharge                   that the Secretary of Homeland Security, in consultation with the Secretary
                                 of State, develop and implement a plan to require U.S. citizens and certain
                                 non-U.S. citizens to present a passport or other secure documentation
                                 denoting identity and citizenship when entering the United States.
     Passport Security           Part of the passport fee, this surcharge helps recover the costs of increased
     Surcharge                   border security, including the costs of enhanced biometric passport features.
     Immigrant Visa (IV)         This surcharge, which is charged in addition to immigrant visa fees, is to
     Security Surcharge          recover the costs of enhanced border security costs related to immigrant
                                 visas.
     Diversity Immigrant         This surcharge is used to recover the costs of allocating and processing
     Visa (DV) Lottery           applications for visas to be used under the Diversity Lottery Program.
     Surcharge Fee
     H and L (H&L) Visa          A fee collected from visa applications related to employment within the
     Fraud Prevention and        United States. The fee finances the fraud prevention components of the
     Detection Fee               Border Security Program.
    Source: Prepared by OIG based on information from the FY 2012 Congressional Budget Justification, the Department’s
    Foreign Affairs Manual, and the United States Code.


       The amount of consular fees collected and retained by the Department for the Border
Security Program during FYs 2008–2011 is provided in Table 2.6




4
  Office of Management and Budget Circular No. A-11, Preparation, Submission, and Execution of the Budget,
states that an offsetting collection is a payment to the “Government that, by law, is credited directly to the
expenditure account” and is deducted from the agency’s budget authority. Usually, the funds are “authorized to be
spent for the purposes of the account without further action by Congress. The authority to spend offsetting
collections is a form of budget authority.”
5
  This amount reflects all consular collections for FY 2010. Border Security Program fees are part of the amount
collected.
6
  Border Security Program consular fees are no-year funds, meaning that the funds are available without fiscal year
limitation.
                                                       5
                                                  UNCLASSIFIED
                                           UNCLASSIFIED



 Table 2. Fees Collected and Retained for the Border Security Program by Fee Type –
 FYs 2008-2011 (Amounts in thousands)
    Type of
     Fee                   FY 2008          FY 2009          FY 2010              FY 2011
  MRV                          $926,703         $819,296           $976,834            $1,239,349
  WHTI                          308,502          253,548            265,748              262,870
  Passport                      256,609          247,108            302,652              440,661
  IV                             23,553           23,046             38,729               52,685
  DV                             20,912           21,560             24,026               27,131
  H&L                            45,188           35,548             37,859               40,825
  Total                       $1,581,467       $1,400,106        $1,645,848            $2,063,521
 Source: Prepared by CA.


Responsible Bureaus

         The Department’s Border Security Program consists of a number of cross-cutting
activities to secure America’s borders, such as consular relations, diplomatic security,
information resource management, and training. Therefore, the border security-related fees are
used by functional bureaus, regional bureaus, and posts. Some of the entities more significantly
involved in the Department’s Border Security Program and their duties pertaining to the program
are as follows:

   	 Bureau of Consular Affairs – CA is the lead bureau for the Department’s Border
      Security Program. CA’s mission is to protect the lives and interests of American citizens
      abroad and to strengthen the security of U.S. borders through the vigilant adjudication of
      visas and passports. CA is responsible for deploying automated systems and developing
      and implementing policies, procedures, and processes that coordinate with other agencies
      across the Federal Government in support of homeland security goals. In 2009, CA
      created the Office of the Comptroller to “ensure that CA resources, at a Bureau level,
      were strategically tracked, leveraged, and utilized to further the goals of both CA” and
      the Department. The Office of the Comptroller is responsible for leading “all strategic
      activities related to contracting, budgeting, accounting, resource management, and
      outreach related to resources.”

   	 Bureau of Diplomatic Security – As the Department’s law enforcement arm, DS is a
      vital component of the Border Security Program’s efforts related to consular fraud
      investigations. DS investigates visa and passport fraud cases and carries out related
      enforcement functions. Regional Security Officers are the main DS representatives at
      posts overseas. Through a memorandum of understanding with CA, Regional Security
      Officers at posts have specific individuals who focus on consular fraud issues.




                                                6
                                           UNCLASSIFIED
                                             UNCLASSIFIED



     	 Foreign Service Institute – The Foreign Service Institute provides training for consular
        officers, consular agents, locally employed staff,7 and systems staff who support
        automated consular systems. The training covers the protection of American citizens
        abroad, including crisis planning and victim assistance; visa adjudication policies and
        procedures; interviewing techniques; name checks; fraud prevention; and leadership and
        management principles. The Foreign Service Institute also uses border security funds for
        administrative support related to conducting this training.

    	 Bureau of Administration – The Bureau of Administration uses border security funds to
       provide for facilities maintenance, custodial services, and utilities at the National Visa
       and National Passport Center in New Hampshire, the Kentucky Consular Center, and the
       Charleston Passport Center in South Carolina. Border security funds are also used to
       lease domestic consular facilities.

    	 Bureau of Information Resource Management – The Bureau of Information Resource
       Management provides system monitoring, technical support, and systems software
       programming.

    	 Regional Bureaus and Posts – Regional bureaus are responsible for posts in the regions
       covered by the bureau. For the Border Security Program, during FY 2010, regional
       bureaus received border security funds to support consular operations at overseas posts.
       For instance, the regional bureaus received funds to pay for the start-up and recurring
       costs associated with American consular officers and salaries of locally employed staff at
       the posts for which they are responsible. Regional bureaus allocate these funds directly
       to their posts.

FY 2010 Border Security Program Expenditures

        During FY 2010, the Department expended approximately $1.2 billion of the $1.6 billion
in consular fees collected for the Border Security Program, as detailed in Table 3. Border
security fees support consular-related activities in the Department, including salaries and benefits
for consular officers and locally employed staff performing consular functions around the world.




7
 “Locally employed staff” is the general term used for Foreign Service Nationals and Ordinarily Resident
American-Citizen employees. Eligible Family Members are also hired locally and considered to be part of locally
employed staff.
                                                  7
                                             UNCLASSIFIED
                                               UNCLASSIFIED


       Table 3. FY 2010 Expenditures From Fees Collected for the Border
       Security Program by Fee Type
                                                    Amount Expended
                    Type of Fee                       (In thousands)
        MRV                                                           $685,168
        WHTI                                                           208,085
        Passport                                                       250,583
        IV                                                              21,847
         DV                                                                                       17,266
         H&L                                                                                    26,367
         Total                                                                              $1,209,316
       Source: Prepared by OIG from the Department's FY 2010 Expense Database.


        For FY 2010, the Department used Border Security Program consular fees on several
different categories of budget object codes.8 As shown in Figure 1, the largest amount of
expenditures was for a budget object code called “Other Contractual Services,” which included
items such as off-site MRV fee collection, armored car service, and guard services.

               Figure 1. Amount Expended by Budget Object Codes

                                                                                 Other Contractual Services
                              1%                                                 ($474,364,000)
                        1%           0%                                          Salaries and Benefits
                                                                                 ($381,051,000)
                      12%                                                        Printing ($183,297,000)
                                                    39%
         15%
                                                                                 Telephone Services
                                                                                 ($138,382,000)
                                                                                 Supplies ($14,025,000)
                                 32%
                                                                                 Travel ($13,432,000)

                                                                                 Other ($4,764,000)


         Source: Prepared by OIG from the Department's FY 2010 Expense Database.




8
 A budget object code is a type of accounting classification used by the Department to identify the kinds of services
or materials for which payments were made.
                                                    8
                                               UNCLASSIFIED
                                        UNCLASSIFIED



                                           Objective
       The overall objective of this audit was to determine to what extent consular fees collected
by the Department were used for mission priorities of the Border Security Program and in
accordance with Department guidelines.

                                         Audit Results

Finding A. OIG Could Not Determine Whether All Border Security Funds
Were Used in Accordance With Mission Priorities
        OIG could not determine whether the Department was using border security funds in
accordance with mission priorities. Although the Department had developed high-level
objectives for the Border Security Program, it did not have a detailed, comprehensive program
plan for the Border Security Program that identified program priorities. OIG was unable to
determine whether the Department was using border security funds for priority items because the
Department’s management structure for the Border Security Program was decentralized.
Although CA was considered the “lead” bureau for the Border Security Program, it did not
exercise authority to oversee all aspects of the Border Security Program. In addition, OIG found
that the program-related roles and responsibilities were not clearly defined; funding decisions
were not based on prioritization factors; and overall accomplishments were not being tracked.

        Without a centralized management structure, it is difficult for an organization to easily
prioritize needs. A program plan would assist CA to more effectively plan activities related to
the Border Security Program and would provide a baseline from which CA could measure
progress in addressing border security issues. The Department needs to make long-term plans
for the Border Security Program to maximize the impact of every dollar spent.

Department Has Established Broad Objectives for the Border Security Program

        The Department’s FY 2010 Congressional Budget Justification (CBJ) stated that the
Border Security Program was a critical element in the Department’s fundamental mission of
protecting Americans overseas and safeguarding the Nation’s borders. The CBJ listed five broad
objectives for the Border Security Program:

       Information Technology
       Enhance data sharing and data analysis initiatives with other agencies and
       increase the effectiveness and efficiency of the applicant screening process
       through name checks and biometric technologies (fingerprint scanning, facial
       recognition). Give consular officials access to information on individuals
       applying for passports or visas.




                                             9
                                        UNCLASSIFIED
                                        UNCLASSIFIED



       Connectivity
       Provide worldwide and redundant connectivity in support of passport and visa
       adjudication, including sufficient bandwidth to support the Consular Consolidated
       Database (CCD) and other data sharing and remote management initiatives.

       Infrastructure
       Provide the most modern equipment and software to support consular operations.
       Ensure an effective replacement and refresh schedule and development of
       software programs to meet workload and legislative requirements.

       Integrity
       Strengthen the integrity of passport and visa issuance processes and products
       through improvements to the documents themselves, enhancements in
       information storage and retrieval, expanded training in anti-fraud techniques and
       procedures, and a comprehensive anti-fraud program.

       Human Resources
       Supply a sufficient number of qualified staff to fill new and vacant consular
       positions. Work with the Department to hire, train, and assign personnel to meet
       increasing workload demands and program growth domestically and overseas.

        CA and DS included strategic goals relating to the Border Security Program objectives in
their bureau plans. For instance, CA’s FY 2010 Bureau Strategic Plan included four strategic
goals that related to the Border Security Program: (1) provide passport services to the American
public, (2) enhance the security of the visa process, (3) transition to a fully electronic visa
process, and (4) prohibit travel of terrorists. DS included a strategic goal in its FY 2010 Bureau
Strategic Plan that related to the Border Security Program: detect and counter attempts to
commit U.S. visa and passport fraud.

        The five Border Security Program objectives generally aligned with the border security
strategic goals developed by CA and DS. For example, the Border Security Program
Information Technology objective aligned with CA’s strategic goal of transitioning to a fully
electronic visa process. Likewise, the Integrity objective aligned with CA’s strategic goal of
enhancing the security of the visa process, as well as DS’s strategic goal of detecting and
countering attempts to commit U.S. visa and passport fraud.

Department Does Not Have a Detailed Program Plan for the Border Security Program

        Although the Department had developed broad program objectives, it did not have a
detailed overall program plan for the Border Security Program. In its FY 2010 CBJ, the
Department provided information on how it planned to spend funds, such as MRV support costs
and passport operations. Although this information is useful for high-level budget
determinations, it does not provide the type of information or level of detail that a program plan
should provide.


                                             10
                                        UNCLASSIFIED
                                        UNCLASSIFIED


        Strategic planning relates to an organization’s process of defining strategies or directions
and making decisions on allocating the organization’s resources to pursue the strategies. A
strategic plan is usually prepared at a high level, while a business or program plan is normally
developed for a specific service or program. One important component of a successful program
is a detailed program plan, which provides the program’s foundation. Specifically, a program
plan should include the following components:

          Details on strategy.
          Goals and priorities.
          A scorecard to measure and manage the plan, including key indicators.

        The focus of the Department’s formal strategic planning process was at the bureau and
post levels. While having the focus at these levels may be appropriate for developing a strategic
plan for the Department, it is important for programs to have specific program plans, which link
to high-level strategic plans, that provide the level of detail needed to assist program
management to make informed, evidence-based decisions; prioritize resources; measure
progress; and align the use of resources with policies.

Border Security Program Lacked a Centralized Program Structure

        OIG was unable to determine whether the Department was using border security funds
for priority items because the Border Security Program did not have a centralized program
structure. A number of bureaus and posts received funds from the Border Security Program, but
the funded projects were being managed decentrally. Although the Border Security Program
expended over $1.2 billion in FY 2010, the Department had not formally designated a program
management office that included a manager responsible for the program, had not defined all of
the participants’ roles and responsibilities in the context of the Border Security Program, did not
have a sufficient process in place to prioritize budget needs, and did not sufficiently track Border
Security Program accomplishments and measure progress toward meeting Border Security
Program goals. Without a centralized program management structure, the Department cannot
ensure that overall goals of the program are coordinated.

       Designated Program Management Office and Program Manager Needed

        The Department had identified the Under Secretary for Management as having authority
for the executive direction of the Border Security Program. However, the Department had not
formally designated any bureau or office with responsibility for overall program management.
Although CA was considered the “lead” bureau for the Border Security Program and had the
most significant management role, it did not have the formal authority needed to oversee all
aspects of the program–specifically, projects being managed by other bureaus or offices–or to
monitor expenditures of border security funds.

       The Under Secretary for Management stated that CA was responsible for the Border
Security Program and therefore should be considered the program manager for the Department’s


                                             11
                                        UNCLASSIFIED
                                                UNCLASSIFIED


entire Border Security Program. According to the FAM,9 the Assistant Secretary for Consular
Affairs “[m]anages the worldwide consular function; ensures responsive and efficient provision
of consular services abroad” and “presents and justifies resource requirements for the Bureau.”
Although the FAM states that CA had the authority to manage consular activities worldwide,
neither the FAM nor the Foreign Affairs Handbook (FAH) had formally identified CA as the
program manager for the Border Security Program.

        To achieve program success, CA should be formally designated as the Border Security
program manager. As the program manager, CA should provide overall direction and oversight
of the program’s implementation, including maintaining control over the program’s budget and
ensuring that the program’s overall goals are achieved.

         Roles and Responsibilities for Implementing the Border Security Program Needed

        A number of bureaus were responsible for Border Security Program activities. For
example, the Department’s CBJ stated that DS provides resources to conduct criminal
investigations concerning passport and visa fraud and identification document fraud; the Foreign
Service Institute provides consular training; the Bureau of Information Resource Management
provides system monitoring, operating, and technical support and system software programming;
and the Bureau of Administration provides facilities maintenance, custodial services, and utilities
at domestic locations. To be successful, a program needs an organizational structure and clearly
defined roles and responsibilities. The Department had not developed formal, comprehensive
policies that defined all participants’ roles and responsibilities within the context of the Border
Security Program.

         Process To Identify and Manage Border Security Program Priorities Needed

        The Department did not base its border security funding decisions on priority factors.
The bureaus that received funding from the Border Security Program prepared annual funding
requests that detailed the planned usage of the funds. To develop a budget plan for the upcoming
fiscal year, the regional bureaus, CA, and DS obtained information from posts separately. For
example, CA obtained requests for overseas Border Security Program funding from posts using
the Web-based Consular Affairs Post Allotment System.10 CA reviewed the information in its
post allotment system and determined which funding requests it would include in the CA border
security budget request. A CA official stated that CA prioritizes its resource needs in its annual
budget request. Regional bureaus sent their own data call requests to posts in their regions
requesting information on funding needs to support border security-funded consular positions at
post. Once the regional bureaus approved the posts’ requests for Border Security Program
funding, the information was submitted to the Bureau of Resource Management, Office of State
Programs, Operations, and Budget (RM/BP). DS also requested information from posts and
from DS program managers on funding needs and developed a funding request based on the data
received. DS submitted its request for Border Security Program funding to both CA and RM/BP.

9
 1 FAM 251.1, “Assistant Secretary for Consular Affairs–Responsibilities.” 

10
  The Consular Affairs Post Allotment System allows officers at posts to initiate, justify, and track their respective 

funding requests from “cradle to grave.”

                                                     12
                                                UNCLASSIFIED
                                              UNCLASSIFIED


RM/BP officials stated that RM/BP had reviewed the request in the context of CA’s full Border
Security Program proposal.

        The Department did not have a comprehensive process to evaluate the importance of the
requests from posts or bureaus to ensure that funds were used for high-priority needs. During
FY 2010, RM/BP was responsible for allotting border security funds to the bureaus involved in
the Border Security Program. RM/BP, in consultation with CA, based the funding decisions on
the requests for funding and on what had been allotted the previous year.

        Border security funds were provided to posts from three different sources: the regional
bureaus provided funds to be used for items such as recurring benefit costs for consular officers
and salaries of some locally employed staff; CA provided funds to be used for salaries and
benefits of certain consular positions overseas as well as for costs incurred for specific travel,
certain contracts, and special supplies unique to consular work; and DS provided funds to be
used for recurring benefits and operational costs in support of visa and passport investigations.
CA provided border security funds to posts based on a post’s request. CA did not use a standard
methodology for providing these funds to posts. CA officials stated that CA compared the
information submitted by posts on the Consular Affairs Post Allotment System with historical
and personnel data to determine the amount to fund rather than using standardized factors to
prioritize posts’ requests. DS also provided border security funds to posts for investigative needs
related to the Assistant Regional Security Officer–Investigator program.11

        During the audit, CA officials stated that RM and the Under Secretary for Management
had authorized CA to have additional control over border security funding to posts. For
example, during FY 2011, CA was authorized to provide funds to posts for consular-related
ICASS costs that had previously been allotted to the regional bureaus, which then sub-allotted
the funds to posts. OIG did not audit the revised process, since it was not within the scope
period of the audit; however, according to an RM/BP official, this was part of an initiative to
centralize management of Border Security Program requirements and resources. The Under
Secretary for Management also stated that the intent of utilizing the ICASS program for the
Border Security Program was to improve the controls over the use of the border security funds at
overseas posts. CA will also soon be allowed to allot funds directly to posts for the salaries of
locally employed staff in consular sections rather than have RM/BP allot the funds first to the
regional bureaus, which in turn would sub-allot the funds to posts. Within the next 2 years, CA
plans to allot funds directly to posts for the salaries of all individuals assigned to the consular
section.




11
  Assistant Regional Security Officer–Investigators are the DS representatives at posts overseas who conduct
criminal investigations related to the illegal issuance or use of passports or visas.
                                                   13
                                              UNCLASSIFIED
                                                 UNCLASSIFIED


        According to the Project Management Institute,12 as part of a successful program, the
program manager should manage budgets at the program level. The program’s resource needs
should be prioritized so that funds can be used in the most efficient and effective manner. In
order to prioritize activities, program managers should implement a systematic process to select
projects and allocate resources to these
projects in order to maximize value added.
The program manager should develop overall             Maintenance and Repair Program
plans that bridge different projects and focus                 Management Model
resources on the program’s key priorities.
                                                                 The Department has other programs that it
         As the program manager, CA should                       could use as a basis for the Border Security
                                                                 Program structure. Officials from the Bureau
have the authority to approve border security                    of Consular Affairs stated that they had met
project budgets and to allot funds as                            with officials from the Bureau of Overseas
appropriate to border security projects.                         Buildings Operations (OBO) to discuss
During the development of budgets or                             OBO’s maintenance and repair program,
spending plans, CA should provide high-level                     which incorporates many of the characteristics
                                                                 of a centralized program. For example,
guidance to the bureaus on the types of
activities that will be funded. Funding                          	   OBO has been delegated overall authority
decisions should be based on standardized                             for maintenance and repair of overseas
priority factors that CA has developed.                               real property.
                                                                 	   Roles and responsibilities for OBO, the
        There is little transparency into how                         regional bureaus, and posts have been
                                                                      established.
other bureaus are using the border security                      	   Formal policies and procedures for
funds. CA had begun to take a leadership role                         program activities are available.
in developing budgets with other bureaus that                    	   OBO has developed a documented
receive funding from the Border Security                              process for posts to request funds and has
Program and in improving transparency. In                             established an electronic application for
                                                                      posts to submit requests.
FY 2010, RM/BP worked with bureaus to
                                                                 	   OBO has specific, standardized factors
develop border security-related budget                                that it uses to prioritize requested
requests. RM/BP would confer with CA                                  projects.
officials about the budget requests received                     	   OBO makes the decision on which
from other bureaus and ensure that CA agreed                          projects to fund and generally bases its
with the requests prior to finalizing the                             decision on a prioritized list of projects.
                                                                 	   OBO has formal monitoring processes in
allotments.
                                                                      place, including on-site audits of post’s
                                                                      expenditures by headquarters-based
         In FY 2011, CA revamped the budget                           auditors and visits by headquarters-based
review process by beginning to hold                                   managers who review the adequacy of
“hearings,” in which officials from bureaus                           funding received and any unmet needs.
and CA offices met with CA’s Comptroller to            	             OBO tracks its efforts to reduce the
                                                                      backlog of maintenance and repair and
justify the bureaus’ and CA’s border security-                        reports this information annually in the
related budget requests. These hearings                               Long-Range Overseas Maintenance Plan.
provided an opportunity for CA officials to
understand other bureaus’ needs and plans for
the funds, specifically those funds related to border security. A CA official stated that this

12
     The Project Management Institute is a not-for-profit association for the project management profession.
                                                      14
                                                 UNCLASSIFIED
                                                UNCLASSIFIED


process included an analysis of the fund requests and could potentially lead to reduced funding
based on the analysis. While CA officials stated that they believed the revised Border Security
Program budgeting process proved to be useful, they also stated that they would strive for greater
transparency and were adjusting the budget review process during FY 2012.

           Accomplishments Need Tracking and Progress Needs Measuring

        Although some bureaus and posts that received Border Security Program funds had
established specific performance indicators for their respective Border Security Program
activities, the Department had not established comprehensive performance goals and indicators
for the program as a whole that could be used to report on accomplishing the purpose of the
program: protecting Americans overseas and contributing to the security of the Nation’s borders.

        Measuring performance against program goals is an essential part of program
management, according to Federal accounting standards.13 Program planning provides a base
from which progress can be measured. The program should measure its accomplishments by
reporting what was provided and what was achieved with the resources used. Measuring
performance is a means of improving program efficiency and effectiveness and program results.

        A CA official stated that the Department had not developed useful metrics for measuring
whether border security had improved. Another CA official stated that it was challenging to
determine useful indicators showing that the borders are more secure. For example, it is difficult
to develop an indicator that the Department can use to affirmatively link its border security
activities to the prevention of a terrorist attack. However, the CA official stated that CA was in
the process of rethinking its goals and was striving to develop goals to better track the successes
of the Border Security Program. Although it may be difficult to establish useful goals,
establishing goals and tracking the accomplishment of those goals are essential parts of any
program.

Program Planning and Centralized Management Structure Allow for Efficient and
Effective Use of Resources

       The Department’s lack of clarity in the management structure for the Border Security
Program has led to ad hoc program management. Formalizing CA’s role as the program
manager for the Border Security Program should improve the management of the program.
Without a transparent and comprehensive program plan for the Border Security Program, the
Department does not have clearly defined roles and responsibilities for the program participants.
A program plan would assist CA in more effectively planning activities related to the program
based on priorities and would provide a baseline from which CA could measure progress in
addressing border security issues. Program planning allows an organization to align resources
and guide decision-making to accomplish priorities and improve outcomes. Without a program
plan guiding the Border Security Program, it will be difficult to prioritize program needs.



13
     Statement of Federal Financial Accounting Concepts 1, “Objectives of Federal Financial Reporting.”
                                                     15
                                                UNCLASSIFIED
                                UNCLASSIFIED


Recommendation 1. OIG recommends that the Bureau of Consular Affairs (CA)
formalize its authority over the Border Security Program by modifying the Foreign
Affairs Manual (1 FAM 250) to recognize CA’s role as the overall program management
office for the Border Security Program.

CA Response: CA agreed with this recommendation, stating that it is revising the FAM
to include language describing the Assistant Secretary’s authority to oversee the
Department’s use of consular fee revenue. The FAM revision will also describe the
Assistant Secretary’s authority to establish policies and procedures that ensure that
consular fees are used properly. CA stated that it planned to submit all proposed
revisions for appropriate clearances during August 2012.

OIG Reply: OIG considers this recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that the revised language
has been published in the FAM.

Recommendation 2. OIG recommends that the Bureau of Consular Affairs develop
clear roles and responsibilities for all parties involved in the Border Security Program and
codify this information in the Foreign Affairs Manual.

CA Response: CA agreed with this recommendation, stating that it plans to develop
Service Level Agreements with Department bureaus that receive consular fee funding,
which will “formalize the roles and responsibilities of all parties involved in the Border
Security Program.” CA further stated that it “anticipates developing and implementing”
the Service Level Agreements in FY 2013 and will work to codify the procedures in the
FAM.

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing the Service Level
Agreements procedure that formalizes the Border Security Program’s roles and
responsibilities and documentation showing that the procedures have been codified in the
FAM.

Recommendation 3. OIG recommends that the Bureau of Consular Affairs develop
processes to prioritize Border Security Program funding requests and oversee the
allocation of funding for prioritized projects of the Border Security Program.

CA Response: CA agreed with this recommendation, stating that in FY 2011 it had
“revamped” the budget process, requiring partner bureaus and CA directorates to submit
“detailed budget justifications and participate in formal hearings.” CA also stated that it
plans to use the Service Level Agreements to “formalize the process for prioritizing
Border Security Program funding requests.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing the processes for

                                     16
                                UNCLASSIFIED
                                               UNCLASSIFIED


        submitting budget justifications and for prioritizing Border Security Program funding
        requests.

        Recommendation 4. OIG recommends that the Bureau of Consular Affairs develop
        comprehensive performance goals and indicators for the Border Security Program and a
        process to measure the program’s accomplishments.

        CA Response: CA agreed with this recommendation, stating that it had “pursued a more
        comprehensive strategic planning process in order to develop an integrated CA-wide
        plan.” CA further stated that it plans to expand the strategic planning initiatives to the
        Border Security Program.

        OIG Reply: OIG considers this recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation showing Border Security Program
        specific performance goals and indicators and a process to measure the program’s
        accomplishments, including work performed by other bureaus or posts.

Finding B. OIG Could Not Determine How Some Border Security Funds
Were Used and Found That Other Funds Were Not Used in Accordance With
Guidelines or Financial Instructions

        OIG could not ensure that some border security funds were used in accordance with CA’s
formal guidelines or other approved financial instructions because several bureaus had moved
funds from border security accounts to general accounts, thereby losing the Border Security
Program fund identity. For expenditures that it was able to test, OIG found that border security
funds were generally being used for consular-related activities. However, some expenditures
were made for items that were not in compliance either with CA’s guidelines or with other
approved financial instructions. Specifically, of the 431 expenditures, totaling about
$2.1 million, made from funds allotted by CA and regional bureaus to overseas posts that were
tested, OIG found 174 expenditures, totaling about $434,000 (approximately 21 percent), made
for items that were not allowed by CA’s guidelines or the budgets and advice of allotments14
approved by the regional bureaus. Of the 174 expenditures for which OIG had concerns, OIG
found that CA had approved 103 expenditures, totaling about $268,000. Therefore, 71
expenditures, totaling about $166,000, of the 431 expenditures tested were not in accordance
with CA’s guidelines or approved financial instructions and had not been separately approved by
CA or the regional bureaus. OIG also tested 30 expenditures, totaling approximately $5,600,
from funds allotted by DS to overseas posts and found that posts generally complied with DS-
approved post spending plans.

        Of the 269 CA expenditures tested domestically, totaling about $497 million, OIG
identified 187 expenditures, totaling about $280 million (approximately 56 percent), that were
14
  After the Department receives its apportionment authority, funds are made available through “allotments.”
Allotment authorities are issued at the highest aggregate funding level to major bureaus, such as the regional
bureaus. The subdivision of funds by a regional bureau to its posts, for example, is accomplished by issuing an
advice of allotment.
                                                    17
                                               UNCLASSIFIED
                                                UNCLASSIFIED


not spent strictly in accordance with CA guidelines or for which OIG could not determine how
the funds were used. For example, funds retained from the Passport Security Surcharge were
supposed to be used only for secure mail and postage. However, CA used approximately $169
million (68 expenditures) for other passport-related costs. In addition, of the 35 DS expenditures
tested domestically, totaling $15.5 million, three expenditures, totaling approximately
$3.4 million (approximately 22 percent), were not in compliance with DS spending plans. These
three expenditures should have been charged to Worldwide Security Protection (WSP) funds15
rather than to border security funds.

       OIG also found that staff who filled all of the 51 overseas positions funded by the Border
Security Program were performing consular-related work. However, staff filling 55 of the 57
consular positions tested that were not funded by the Border Security Program were performing
work similar to staff filling positions funded by the Border Security Program. The Department
had not yet converted “legacy” positions16 funded from appropriated funds to the Border
Security Program. As of March 2012, the Department was in the process of transferring the
funding for these legacy positions from appropriated funds to border security funds.

        OIG found that only CA had developed formal guidelines on how border security funds
could be used, and this guidance needed to be updated. None of the other bureaus included in
the audit had developed formal guidance on how border security funds could be used. Instead,
the other bureaus reviewed the budget requests submitted by the posts to determine the types of
expenditures that could be funded using Border Security Program fees. Because CA did not
have program management authority for the Border Security Program, CA’s guidelines applied
only to funds allotted to CA (and subsequently sub-allotted to posts). In addition, the
Department did not have a process in place to monitor the use of the funds. Without sufficient
guidance and proper oversight of expenditures, there was no assurance that the border security
funds would be used only for border security-related expenditures.

Border Security Program Funds Were Commingled With Other Funds

        Federal accounting standards17 state that “reliable information on the costs of federal
programs and activities is crucial for effective management of government operations.” Federal
agencies should be able to determine the costs of providing specific programs and activities and
the composition of those costs. OIG was unable to determine how some of the consular fees
collected for the Border Security Program were used, and so it was unable to ensure that these
expenditures were made in accordance with CA guidelines or other approved financial
instructions.

      The Department uses certain codes to identify and account for the funds it receives and
how those funds are used. Currently, funds collected for one type of border security-related

15
   WSP is funded and earmarked within the Department’s Diplomatic and Consular Programs appropriation. A

portion of the WSP is used by DS to fund its Diplomatic Readiness Initiative needs. 

16
   CA defines “legacy” positions as positions established prior to 1995 that are still paid from appropriated funds. 

17
   Statement of Federal Financial Accounting Standards No. 4, “Managerial Cost Accounting Standards and

Concepts.”

                                                     18
                                                UNCLASSIFIED
                                               UNCLASSIFIED


consular fee, H&L, have a unique appropriation code (19X5515). The Department accounts for
the funds collected from the remaining types of fees by using specific point limitations under
the Diplomatic and Consular Programs appropriation.18 According to the FAH,19 accounting
codes provide essential information about transactions and allow for the summarization of
expenditures for accounting and management purposes. Commingling funds from one account
with funds from another account lessens the integrity of financial information in the
Department’s accounting system. Commingling funds also does not provide a useful audit trail
on how the funds were used.

        OIG noted that several bureaus had moved funds allotted from one of the border security-
related point limitations to other bureau accounts. For instance, during FY 2010, CA transferred
$8.7 million of MRV fees, appropriation code 19X0113.6, to the general Diplomatic and
Consular Programs fund. A CA official explained that this transfer was done because the
amount of funds appropriated to CA was limited and CA needed to use the MRV fees to fund
CA operating costs. The official also stated that the estimated amount to transfer was based on
past experience and that if CA did not spend the entire amount during the period covered, the
extra funds would be transferred back to the MRV point limitation. However, once the funds
were moved to the general Diplomatic and Consular Programs appropriation, the funds lost their
MRV identity. As a result, it would no longer be possible to determine how the funds were used
and what, if any, extra funds would be transferred back to the MRV account.

       OIG noted that during FY 2010 WHA received $48.8 million of MRV funds for certain
personnel-related costs. Similar to CA, WHA transferred $46.1 million of the MRV funds to its
general Diplomatic and Consular Program appropriation. WHA allotted funds from the general
account to posts for post operations, including consular-related activities. However, because the
funds were no longer uniquely identifiable, a post official stated that it would be difficult to
determine how the MRV fees were used. Although OIG did not perform testing at the Bureau of
European and Eurasian Affairs or the Bureau of African Affairs, CA officials stated that similar
to WHA, those two bureaus also commingled funds.

Not All Nonpersonnel Border Security Funds Were Used in Accordance With CA
Guidelines or Other Financial Instructions

        OIG tested nonpersonnel expenditures overseas and domestically to determine whether
the funds were expended in accordance with CA’s formal guidelines or other approved financial
instructions. OIG found that of the 431 expenditures, totaling about $2.1 million, from funds
allotted by CA and regional bureaus to overseas posts that were tested, 174 expenditures, totaling




18
   A point limitation is a decimal suffix added to the appropriation account symbol. For example, the appropriation
code for the Department’s general Diplomatic and Consular Programs appropriation is 19X0113. However, by
adding a point limitation to this appropriation code, such as 19X0113.Y for Western Hemisphere Travel Initiative
fees, the Department is able to track the border security fund types separately. Each fee type has a unique
accounting identification.
19
   4 FAH-1 H-113, “Account Classification Structure.”
                                                    19
                                               UNCLASSIFIED
                                               UNCLASSIFIED


about $434,000, did not comply with CA’s Post Allotment Funding Matrix20 (see Appendix B)
or the budgets and advice of allotments approved by the regional bureaus. OIG also found that
of the 174 expenditures, 103 expenditures, totaling about $268,000, were approved by CA for
purchases that were not in accordance with CA’s guidelines. However, of the 174 expenditures,
71 expenditures, totaling about $166,000, were not in accordance with CA’s guidelines or other
approved financial instructions and had not been approved separately by CA or the regional
bureaus. Of the 71 expenditures, 67 were from one post that was using border security funds
allotted by CA for costs associated with consular staff, such as lease payments, and that should
have been paid from border security funds allotted by the regional bureaus. OIG also tested 30
expenditures from funds allotted to DS and then were sub-allotted to posts and found that the
expenditures were generally in accordance with DS-approved post spending plans.

        OIG found that of the 269 CA expenditures tested domestically, totaling about
$497 million, 187 expenditures, totaling about $280 million (approximately 56 percent), were
not used in accordance with CA’s Consular Fee Authorities guidelines or OIG was unable to
determine how the funds were used. However, most of the expenditures were used for consular-
related activities. Also, of the 35 DS expenditures tested domestically, totaling $15.5 million,
DS had erroneously made three charges, totaling about $3.4 million (approximately 22 percent),
against border security funds rather than against WSP funds.

         Nonpersonnel Expenditures at Overseas Posts

       OIG tested FY 2010 border security nonpersonnel expenditures at three overseas posts:
China, India, and Mexico. OIG selected two separate samples of nonpersonnel expenditures, one
sample of the expenditures from the funds allotted by the regional bureaus and CA, and another
sample of the expenditures from the funds allotted by DS. (Details on the samples chosen are
presented in Appendix A, “Detailed Sampling Methodology and Results at Selected Posts and
Bureaus.”)

       Funds Allotted by CA and Regional Bureaus. OIG tested 431 border security-related
nonpersonnel expenditures from the funds allotted by the regional bureaus and CA. To
determine the allowability of the expenditures from CA-allotted funds, OIG used CA’s Post
Allotment Funding Matrix.

        The regional bureaus did not have formal guidance on the types of activities that were
allowable from regional bureau-allotted funds. Therefore, OIG used the bureau-approved post
budgets and advices of allotment to determine the allowability of regional bureau-allotted border
security funds. Posts may use regional bureau-allotted funds to pay for the initial, nonrecurring
costs related to bringing a consular officer to post, such as purchasing residential and office
furniture and preparing housing for the employee, as well as for consular officers’ recurring
expenses, such as education allowances and residential utilities.

20
  The Post Allotment Funding Matrix is a CA document that provides guidelines on the types of items for which
posts can and cannot use the CA-allotted funds. For example, posts are permitted to spend the funds to obtain a fax
or Internet connection for consular agents, but posts may not use the funds for basic office equipment, including
printers and shredders.
                                                    20
                                               UNCLASSIFIED
                                                   UNCLASSIFIED



        As shown in Table 4, OIG found that of the 431 expenditures tested, 174 expenditures
(approximately 40 percent) either did not comply with CA guidelines or regional bureau-
approved budget requests or the post was unable to provide sufficient documentation to support
the expense. For 103 of the 174 expenditures, CA had approved posts’ requests to use the funds
for items that were not allowed by CA guidelines. The remaining 71 expenditures, totaling about
$166,000, did not comply with the CA guidelines or approved post budget requests (or no
support was provided by post), and post did not obtain approval from CA or the regional bureau
for the expenditures.

Table 4. Results of Testing Overseas Nonpersonnel Expenditures From Funds Allotted by
CA and the Regional Bureaus

                                                               China       Mexico      India        Total
 Number of Expenditures                                             867       1,366        2,205        4,438
 Amount of Expenditures                                        $567,532    $799,214   $1,822,547   $3,189,293
 Number Tested                                                       64         224          143          431
 Amount Tested                                                 $381,461    $510,663   $1,194,393   $2,086,517
 Total Number of Exceptions                                          13         144           17          174
 Total Dollar Amount of Exceptions                              $40,371    $319,553      $74,107    $434,031
 Number of Exceptions Not in Compliance With                         11          77           15          103
 Guidance but Allowed by CA
 Dollar Amount of Exceptions Not in Compliance                  $29,067    $169,334     $69,892     $268,293
 With Guidance but Allowed by CA
 Number of Exceptions Not in Compliance with                           2        67             2            71
 Guidance and Not Allowed by CA or the
 Regional Bureau
 Dollar Amount of Exceptions Not in Compliance                  $11,304    $150,219      $4,215     $165,738
 With Guidance and Not Allowed by CA or the
 Regional Bureau
Source: Prepared by OIG based on the results of its testing.

       Although CA’s Post Allotment Funding Matrix lists the types of expenditures allowed
and not allowed using CA-allotted border security funds, CA approved some expenditures that,
according to the matrix, were identified as not allowed. For example, the matrix indicates that
funds should not be used for temporary duty (TDY) support for constituent posts. All of the
exceptions noted by OIG that were allowed by CA were related to TDY travel. For example, CA
approved requests from Mexico and China for certain TDY travel between constituent posts in-
country and other requests for TDY support to Haiti. CA also approved expenditures related to a
TDY travel request from India for a site visit to Yemen.

       In general, China and India used the border security funds they received in accordance
with CA guidelines and approved budgets, or they obtained approval from CA for using the
funds in other ways, as shown in Table 4. OIG tested 64 expenditures, totaling $381,461, in
China and identified 13 expenditures, totaling $40,371, that were not in accordance with the
guidelines. Of the 13 expenditures, China had requested and obtained CA approval for 11
expenditures relating to TDY travel. The remaining two expenditures, totaling $11,304, were
                                                        21
                                                   UNCLASSIFIED
                                         UNCLASSIFIED


also for TDY travel, but post did not request the approval of CA or the regional bureau for these
expenditures. OIG tested 143 expenditures, totaling approximately $1.2 million, in India and
identified 17 expenditures, totaling $74,107, that were not in accordance with the guidelines. Of
the 17 expenditures, India requested and obtained CA approval for 15 expenditures relating to
TDY travel. The remaining two expenditures, totaling $4,215, were also related to TDY travel,
but the post did not obtain the approval of CA or the regional bureau for these expenditures.

        Mexico made a number of expenditures from funds allotted by CA that were not allowed
by CA guidelines or approved separately by CA. OIG tested 224 expenditures, totaling
$510,663, and identified 144 expenditures, totaling $319,553, that were not in accordance with
CA guidelines. Of the 144 expenditures, Mexico had requested and obtained CA approval for
77 expenditures relating to TDY travel. However, Mexico did not obtain approval for the
remaining 67 expenditures, totaling $150,219. Many of the 67 expenditures were for janitorial
services; electricity; lease payments; TDY travel outside Mexico; and routine office supplies
such as mouse pads, copier paper, tape, and toner. Based on information contained in CA’s Post
Allotment Funding Matrix, discussions with CA officials, and information in the regional
bureau’s approved budget for post, the post should have requested and used regional bureau-
allotted border security funds to pay for these items. Embassy staff stated that they believed post
could use the border security funds to pay any costs associated with consular staff. For example,
post used the fees to pay for consular staff training courses, even though the courses were
unrelated to border security or consular activities such as Equal Employment Opportunity
training. CA was aware that Mexico was using funds for certain items that were not allowed by
CA guidelines. CA advised Mexico to use the border security funds allotted by the regional
bureaus, not the CA-allotted funds, for these activities.

        Funds Allotted by DS. OIG tested 30 overseas border security-related nonpersonnel
expenditures from the funds allotted by DS. DS did not have formal guidelines on how border
security funds that it allotted to posts were to be used. Therefore, to determine the allowability
of the expenditures from DS-allotted funds, OIG used DS-approved post budgets. DS allows
posts to use border security funds for costs associated with supporting the Assistant Regional
Security Officer-Investigator positions at each post, such as residential utilities, office supplies,
and education allowances. DS also provides border security funds to post for the salaries and
benefits of locally employed staff investigators.

         As shown in Table 5, OIG found that posts generally complied with approved budgets
and spent the majority of DS border security funds on allowable items. Of the 30 expenditures
tested, totaling approximately $5,600, OIG identified two expenditures, totaling $343
(approximately 6 percent), that did not comply with the DS-approved post budget. Officials at
one post were unable to provide sufficient supporting documentation for one of the expenditures
tested. The other expenditure was considered an exception because post used DS-allotted funds
to pay a utility bill for a consular position that should have been paid with funds allotted by CA.
Although the utility bill was not funded from the correct allotment, the expenditure was a cost
that could have been paid using border security-related funds.



                                              22
                                         UNCLASSIFIED
                                                     UNCLASSIFIED



Table 5. Results of Testing Overseas Nonpersonnel Expenditures From DS Allotted Funds

                  Number of            Amount of               Number      Amount      Number of        Amount of
  Mission        Expenditures         Expenditures              Tested     Tested      Exceptions       Exceptions
 China                    134              $50,171                    10     $1,256                 0             0
 Mexico                   624             $150,259                    10     $1,871                 2          $343
 India                    474             $136,868                    10     $2,521                 0             0
   Total                1,232             $337,298                    30     $5,648                 2          $343
Source: Prepared by OIG based on the results of its testing.

          Domestic Nonpersonnel Expenditures

        OIG tested FY 2010 border security nonpersonnel expenditures at two domestic bureaus:
CA and DS. CA used border security funds domestically to pay for U.S. postal charges,
contractor support for consular work related to visa and passport operations, and access to
searchable databases containing information on U.S. and foreign companies. DS used border
security funds for guard services at domestic consular facilities and for investigative support for
visa and passport fraud, including purchasing equipment and providing training for investigators.
(Details on the sample chosen are provided in Appendix A.)

       Funds Allotted to CA. OIG tested 269 border security-related nonpersonnel
expenditures from funds allotted to CA. To determine the allowability of the domestic CA
expenditures, OIG used CA’s Consular Fee Authorities guidelines. As shown in Table 6, CA’s
guidelines limit how CA can use border security funds domestically.

Table 6. CA’s Consular Fee Authorities Guidelines

 Fee Type           Fee Collection Purpose                                                Fee Usage
 MRV      Recovery of costs of providing consular                            All consular activities as well as
          services.                                                          reimbursement to the Federal
                                                                             Bureau of Investigation for name
                                                                             checks and fingerprint checks.
 WHTI            Recovery of costs of meeting increased                      Personnel, overtime, contractual
                 demand for passports as a result of actions                 services, and passport books and
                 taken in compliance with WHTI.                              passport cards.
 Passport        Payment of consular services in support of                  Secure mail and postage.
                 border security.
 IV              Payment of consular services in support of                  IV-related costs under the Border
                 border security.                                            Security Program.
 DV              Recovery of costs of allocating DVs,                        Kentucky Consular Center and
                 including the cost of processing all                        overseas operations related to the
                 applications for DVs.                                       DV program.
 H&L             Prevention and detection of visa fraud,                     Programs or activities to prevent and
                 including primarily fraud applications for H                detect visa fraud.
                 and L visas.
Source: Worksheet provided by CA.

                                                          23
                                                     UNCLASSIFIED
                                                    UNCLASSIFIED

        As shown in Table 7, of the 269 expenditures tested, 187 expenditures (approximately
70 percent), totaling almost $280 million, were not spent strictly in accordance with CA
guidelines or OIG could not determine how the funds were used. Although OIG found that a
number of the expenditures tested did not comply with CA’s Consular Fee Authorities
guidelines, OIG noted that most of the questioned expenditures were used for consular-related
activities.

Table 7. Results of Testing Domestic Nonpersonnel Expenditures From Funds Allotted to
CA
   Fee          Number of            Amount of             Number        Amount       Number of    Amount of
  Type         Expenditures         Expenditures            Tested       Tested       Exceptions   Exceptions
 MRV                 18,715          $291,767,717                21    $128,246,638            4     $8,693,000
 WHTI                   548          $122,153,240               111    $101,944,581          111   $101,944,581
 Passport                81          $250,582,746                80    $250,582,138           68   $168,836,446
 IV                     205           $12,230,735                19     $10,475,684            0              0
 DV                     193              $570,968                  7       $151,862            4        $94,683
 H&L                     88            $5,225,687                31      $5,197,812            0              0
 Total               19,830          $682,531,093               269    $496,598,715          187   $279,568,710
Source: Prepared by OIG based on results of its testing.


        As described in Finding B, “Border Security Funds Were Commingled With Other
Bureau Funds,” OIG was unable to determine how funds related to four MRV sample items,
totaling about $8.7 million, were spent because CA transferred money to another fund. In
addition, Western Hemisphere Travel Initiative (WHTI) fees are collected and retained to cover
the costs associated with the increased demand for passports as a result of the requirement that
citizens who travel to western hemisphere locations, such as Canada and Mexico, must have
passports or other secure documentation denoting identity and citizenship when entering the
United States. However, CA did not limit the use of WHTI fees in this manner and was unable
to show that the 111 expenditures tested, totaling about $102 million, were used only for the
increased costs of complying with WHTI. For example, CA used WHTI fees to support general
passport operations, such as purchasing passport card supplies and supporting the costs of
operating passport centers. A CA official stated that the Office of the Legal Adviser had
interpreted the legislation broadly, allowing the Department to use WHTI funds for items that
were not specifically related to the increased demand for passports created because of the
requirement for citizens to have a passport to travel to western hemisphere locations.

       CA’s Consular Fee Authorities guidelines state that funds retained from the Passport
Security Surcharge should be used only for secure mail and postage. However, OIG found that
CA used approximately $169 million of Passport Security Surcharge funds for other types of
passport-related costs, such as costs for printing passports and purchasing ink ribbons, film
overlays, and secure-coating material.

        According to CA’s Consular Fee Authorities guidelines, Diversity Immigrant Visa (DV)
fees should be used only for expenditures specifically related to the DV program. However, CA
was unable to provide documentation showing that four of the expenditures sampled, totaling

                                                         24
                                                    UNCLASSIFIED
                                                    UNCLASSIFIED


about $95,000, were used specifically for DV-related costs. CA paid for contractor-provided
fraud prevention support that was not related to the DV program.

        Funds Allotted to DS. OIG tested 35 border security-related nonpersonnel expenditures
from the funds allotted to DS. DS had not developed formal guidelines on the types of domestic
DS activities that could be paid for from the Border Security Program funds. DS officials stated
that border security expenditures should fall into two categories: guard services for domestic
consular facilities and investigative support for the visa program. OIG used a copy of DS’s
spending plans to assess the allowability of the DS expenditures tested.

       As shown in Table 8, the DS border security-related expenditures were generally in
compliance with DS’s spending plans. OIG found that of the 35 expenditures tested, totaling
approximately $15.5 million, only three expenditures, totaling approximately $3.4 million
(approximately 22 percent), were not in compliance with DS’s spending plans.

Table 8. Results of Testing Domestic Nonpersonnel Expenditures From Funds Allotted to
DS
                                                          Number of
  Fee        Number of              Amount of            Expenditures    Amount       Number of    Amount of
 Type       Expenditures           Expenditures             Tested        Tested      Exceptions   Exceptions
 MRV                4,527            $18,860,180                   29   $14,502,300            3    $3,421,014
 H&L                  665             $1,926,213                    6    $1,001,561            0             0
 Total              5,192            $20,786,393                   35   $15,503,861            3    $3,421,014
Source: Prepared by OIG based on the results of its testing.


        DS is responsible for guard service contracts for the Department’s domestic locations,
including domestic consular offices. When consular offices are collocated with other
Department operations, the costs of the guard services related to the consular space are charged
separately from the costs of the guard services for the other space. DS uses border security fees
to fund the portion of the guard service contract related to consular space and WSP funds for the
remaining costs.

        DS erroneously made three charges, totaling $3.4 million, against border security funds
for costs related to guard services that should have been paid using WSP funds. When DS noted
the error, rather than correcting the transactions in the accounting system, it used WSP funds to
pay for the consular portion of guard services charged in other invoices. However, DS had
charged only a total of $1.4 million of consular costs to the WSP funds, leaving an outstanding
amount of approximately $2.1 million that had not been refunded from WSP to the Border
Security Program.

Consular Personnel Overseas Were Not Always Funded From Border Security Funds

       Funds for local staff payroll costs and certain allowances provided to American
employees overseas are allotted to each post. OIG planned to perform tests of the expenditures
made for salaries and benefits. However, the information included in the expenditure reports

                                                         25
                                                    UNCLASSIFIED
                                              UNCLASSIFIED


from the Department’s accounting system did not provide the level of detail needed to determine
the name of the employee paid. For example the “vendor name” section of the expenditure
report for most of the payroll expenditures included either “Capps Payroll,” which is the
American payroll system, or “Rfmsempl,” which is the designation used for Foreign Service
National staff paid through the Foreign Service National Payroll system.

       OIG attempted to obtain details on the FY 2010 expenditures from the accounting
system’s helpdesk and from Payroll Customer Support at the Charleston Financial Service
Center in South Carolina. Helpdesk personnel stated that they were unable to assist in this effort,
and Payroll Customer Support Unit officials stated that it would be a “massive task” to provide
additional details. Without having detailed information on payment recipients, neither OIG nor
the Department could ensure that Border Security Program funds were used for employees
performing work on border security-related issues.

        OIG developed an alternative testing methodology for personnel-related expenditures.
OIG wanted CA to provide a list of all employees funded using Border Security Program funds,
but CA was unable to provide a complete and accurate list of American and local staff by
location. A CA official stated that the Department could not easily compile a list of consular
employees because the employees worked in various bureaus and posts.

        OIG used data from CA’s Consular Workload Statistical System21 (CWSS) for selecting
a sample of positions to be tested at five overseas locations: Beijing and Guangzhou (China),
Mexico City (Mexico), and New Delhi and Mumbai (India). Although this system identifies
CA-funded positions overseas by post (both American direct hire and local staff), OIG found that
the information in the system was not reliable. For example, OIG found three instances at
Consulate Mumbai in which consular positions were listed as unfilled for FY 2010. However,
documentation from post indicated that the positions were in fact filled.22 OIG also found
instances in which the CWSS database listed employees as MRV funded. However, the human
resource documents at posts showed that the positions were funded from appropriated funds.

        Using the information from posts, OIG tested 108 consular positions, some funded from
the Border Security Program and some funded from appropriated funds (see Appendix A). CA
did not provide specific guidelines on when consular employees should be funded or should not
be funded using Border Security Program funds. Therefore, for the positions that were funded
using Border Security Program funds, OIG ensured that the employees were performing
consular-related activities. For the consular employees who were not being funded using Border
Security Program funds, OIG determined whether the employees were performing activities
similar to activities of employees whose positions were funded from the Border Security
Program. As shown in Table 9, all of the staff in consular positions funded with Border Security
Program funds were performing consular work. However, of the 57 positions tested that were

21
   CWSS, also referred to as the “consular package,” is used by CA and other bureaus and posts to track information
related to productivity, efficiency, and management goals and strategies at consular sections. Both CA and posts
can enter information into CWSS. CWSS collects data and workload statistics for the previous fiscal year.
22
   Data are entered annually into the CWSS schedules. A CA official stated that the data provide a “snapshot in
time” of what occurred at post during the year.
                                                   26
                                              UNCLASSIFIED
                                                    UNCLASSIFIED

funded from appropriated funds, 55 staff members in these positions were performing work that
could have been paid for using Border Security Program funds. The use of appropriated funds
for these similar positions occurred because the Department had not converted legacy positions
funded from appropriated funds to the Border Security Program funds.

Table 9. Results of Testing the Funding of Overseas Consular Positions
                                            Number of Border                                Number of
                     Number of               Security-Funded         Number of            Appropriation-
                   Border Security-           Positions Not        Appropriation-        Funded Positions
                       Funded                   Related to             Funded               Related to
    Post           Positions Tested          Consular Work         Positions Tested       Consular Work
 Beijing                          9                         0                    14                     14
 Guangzhou                        5                         0                    15                     15
 Mexico
 City                                 10                       0                  13                        11
 Mumbai                               15                       0                   6                         6
 New Delhi                            12                       0                   9                         9
 Total                                51                       0                  57                        55
Source: Prepared by OIG based on the results of its testing.


        The Department was aware that some consular legacy positions were still being funded
using appropriated funds. As new consular positions were created, the positions were funded
from the Border Security Program. During FY 2012, the Under Secretary for Management
instructed CA to fund all consular positions from the Border Security Program. CA planned to
transfer the funding for the legacy positions during FY 2012 and FY 2013. For FY 2012, CA
was working to transfer the funding for the local staff to the Border Security Program.
Additionally, a CA official stated that CA planned to make arrangements to fund all overseas
American direct hire consular positions from the Border Security Program in FY 2013. Because
the Department was taking steps to address this issue, OIG is not making any formal
recommendations.

Department Does Not Have Sufficient, Consistent Guidance on the Use of Border Security
Funds

        The authorizing legislation for each fee type used for border security activities includes
basic information on how the fees can be used. For instance, the authorizing legislation for
MRV states that fees collected are for recovering the costs of providing consular services and
will be available for the same purposes.23 The authorizing legislation for WHTI states that the
fees collected can be used for the “increased demand for passports as a result of actions taken to
comply” with the requirements that all U.S. citizens should present a passport or other secure
documentation when entering the United States from any location,24 including from Canada and
Mexico.


23
  Pub. L. No. 107-173, as amended, sec. 103, “Machine-Readable Visa Fees.” 

24
  Pub. L. No. 109-167, as amended, sec. 2, “Authority of Secretary of State to establish and collect a surcharge to

cover the costs of meeting the increased demand for passports.” 

                                                         27
                                                    UNCLASSIFIED
                                                  UNCLASSIFIED


        While information in the public laws is useful, the laws do not provide the level of detail
needed to effectively manage border security expenditures. In general, OIG found that the
Department had not developed sufficient guidance on how border security funds should be used.
Of the five bureaus included in the audit, only one bureau, CA, had developed formal guidelines
on how border security funds should be used. Because CA did not exercise program
management authority for the Border Security Program, CA’s guidelines did not apply to funds
allotted to other bureaus. None of the other bureaus or posts audited had developed formal
guidelines on the use of border security funds. CA should be responsible for establishing and
maintaining program-related standards, processes, and procedures.

        Even though CA had developed some guidelines on the use of CA-allotted border
security funds, these guidelines did not accurately reflect how CA allowed the funds to be used.
As discussed in Finding B, CA approved requests from posts to spend border security funds on
items that were not allowed by the CA guidelines. CA officials stated that the domestic
guidelines did not reflect certain expenditures that CA considered to be allowable. For instance,
CA’s domestic guidelines state that the Passport Security Surcharge should be used only for
secure mail and postage. However, a CA official stated that the Passport Security Surcharge
legislation25 authorizes the Department to charge surcharges for consular services in support of
enhanced border security that are in addition to the passport and immigrant visa fees. The CA
official further stated that the Passport Security Surcharge could therefore be used for other
items, such as the enhancement of passport documents, secure mail/postage, and security
features. During OIG’s audit, CA officials acknowledged that CA’s guidance should be updated
to reflect its current usage of this fee type.

        A key factor in helping an agency achieve desired outcomes and minimize operational
problems is to implement appropriate internal controls. Internal controls are an integral
component of an organization that assist in ensuring that an agency complies with laws and
regulations. Internal control activities include having policies and procedures to help ensure that
proper actions are taken by the organization. Policies and procedures are the link between what
should be done and what is actually done in day-to-day operations. Written policies and
procedures allow employees to understand their responsibilities and allow management to guide
operations without constant management involvement.

Department Does Not Have an Adequate Centralized Process for Monitoring the Use of
Border Security Program Funds

        OIG did not find any bureau or office that had been overseeing all expenditures made
from the Border Security Program fund or ensuring that bureaus and posts were using the funds
in accordance with requirements. RM has a high-level responsibility to monitor all Department
funds, but RM is not responsible for ensuring that specific expenditures are made for allowable
purposes. Bureaus are responsible for monitoring at this level of detail. Even though CA is
considered the “lead” bureau for the Border Security Program, a CA official stated that CA did
not know whether bureaus and posts were using border security funds properly in support of the
program. CA did not obtain any information from bureaus and posts on how funds were used

25
     8 U.S.C. § 1714, “Surcharges related to consular services.”
                                                       28
                                                  UNCLASSIFIED
                                       UNCLASSIFIED


and did not have access to information on other bureau and post expenditures in the
Department’s accounting system.

        According to CA officials, consular managers at posts have key roles in overseeing the
provision of consular services, including maintaining strong internal controls and accountability
for fees. CA has implemented two methods for monitoring consular activities at post: the
Consular Management Assistance Team works collaboratively with posts to ensure the post is
properly maintaining management controls and effectively utilizing resources, and the Regional
Consular Officer program provides oversight, mentoring, and guidance for small, isolated
consular sections. Neither method considers the allowability of post border security-related
expenditures. CA could take advantage of these methods to have greater coverage of border
security expenditures at post. However, to ensure sufficient coverage of all border security-
related expenditures, the Department should develop a process to monitor these expenditures that
is centrally managed by a program manager.

        In addition, program managers need information that would be useful for planning,
controlling, and conducting Government operations. During meetings, Department officials told
the OIG audit team that there was no standard financial reporting related to the use of the border
security funds. While each bureau or post that uses these funds has access to information on its
own expenditures in the accounting system, nothing aggregates the information in a manner that
can be useful to managers. CA needs information on overall expenditures to ensure that the
program is working effectively and efficiently and that funds are being used in accordance with
budgetary and legal guidance.

        An agency’s internal control process should generally be designed to ensure that ongoing
monitoring occurs in the course of normal operations. Monitoring should be performed
continually and be ingrained in the agency’s operations. An important component of strong
program management is the establishment of proper oversight of the projects performed as part
of the overall program. The program manager should monitor the various projects to ensure that
overall goals, budgets, and benefits are achieved.

Reliable Cost Information Is Essential for Effective Management

        Managers should be accountable for the integrity, performance, and stewardship of the
programs they oversee. Reliable and timely cost information helps managers ensure that
resources are spent appropriately and alerts them to waste and inefficiency. Information on the
costs of Federal programs is crucial for effective management of Government operations.

        Because the Department could not easily determine how all border security funds were
used, it could not ensure that the funds were used properly. The lack of sufficient Department
guidance on allowable border security expenditures and limited adherence to the CA guidance
increase the likelihood that improper payments could be made or that waste, fraud, or abuse
could occur and not be detected. Without proper oversight of budget requests and approvals, of
the expenditures being made, and of the users’ adherence to guidance, there is no assurance that
border security funds will be used effectively and efficiently.

                                            29
                                       UNCLASSIFIED
                               UNCLASSIFIED


Recommendation 5. OIG recommends that the Bureau of Diplomatic Security refund
the $2.1 million erroneously charged to the Border Security Program fund from the
Worldwide Security Protection fund.

DS Response: DS concurred with this recommendation, stating that “after further
research,” it had “discovered that a total of 67 FY 2010 invoices were erroneously
charged against” the WSP account. The error occurred, according to DS, when “the
previous contracting officer’s representative transposed the award lines for MRV and
WSP from the account.” Based on its calculations, DS stated that the Border Security
Program owes WSP approximately $1 million.

OIG Reply: OIG confirmed, through a review of supporting documentation provided by
DS related to its research, that the documentation DS had provided to CA supported this
conclusion. A CA official stated that CA had agreed to reimburse DS for the amount
calculated. Therefore, OIG considers this recommendation closed.

Recommendation 6. OIG recommends that the Bureau of Consular Affairs develop
Department-wide guidance on the use of border security-related funds and disseminate
the guidance to all bureaus and posts that receive border security funds.

CA Response: CA agreed with this recommendation, stating that it plans to include
“guidance on the development of budget requests” for border security funds by partner
bureaus in the planned Service Level Agreements. CA also stated that it is “significantly
revising the post allotment process, including updating the CA Post Allotment Funding
Matrix to ensure continuity, transparency, and conformity to standard operating
procedures.”

OIG Reply: OIG considers this recommendation resolved. OIG will close this
recommendation when it reviews and accepts formal guidance from CA on the use of
border security funds and when the new guidance has been disseminated to all bureaus
and posts that receive border security funds.

Recommendation 7. OIG recommends that the Bureau of Consular Affairs develop and
implement a comprehensive monitoring process, to include periodic reviews of
expenditures, for the Border Security Program that will ensure that border security funds
are used in accordance with guidelines.

CA Response: CA agreed with this recommendation, stating that it had “recently created
a bureau-wide internal review program, which focuses on financial management and
contract administration oversight within [CA].” CA further stated that it plans to expand
the program to include evaluating whether overseas posts are spending border security
funds “in accordance with Department guidelines” and that it also plans to “add a review
section to the Bureau Service Level Agreements” that will “indicate how often the
reviews will occur.”


                                    30
                               UNCLASSIFIED
                               UNCLASSIFIED


OIG Reply: OIG considers this recommendation resolved. OIG will close this
recommendation when it reviews and accepts documentation showing that an internal
monitoring process related to the use of border security funds has been implemented.




                                    31
                               UNCLASSIFIED
                                       UNCLASSIFIED



                                List of Recommendations 

Recommendation 1. OIG recommends that the Bureau of Consular Affairs (CA) formalize its
authority over the Border Security Program by modifying the Foreign Affairs Manual (1 FAM
250) to recognize CA’s role as the overall program management office for the Border Security
Program.

Recommendation 2. OIG recommends that the Bureau of Consular Affairs develop clear roles
and responsibilities for all parties involved in the Border Security Program and codify this
information in the Foreign Affairs Manual.

Recommendation 3. OIG recommends that the Bureau of Consular Affairs develop processes
to prioritize Border Security Program funding requests and oversee the allocation of funding for
prioritized projects of the Border Security Program.

Recommendation 4. OIG recommends that the Bureau of Consular Affairs develop
comprehensive performance goals and indicators for the Border Security Program and a process
to measure the program’s accomplishments.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security refund the $2.1
million erroneously charged to the Border Security Program fund from the Worldwide Security
Protection fund.

Recommendation 6. OIG recommends that the Bureau of Consular Affairs develop
Department-wide guidance on the use of border security-related funds and disseminate the
guidance to all bureaus and posts that receive border security funds.

Recommendation 7. OIG recommends that the Bureau of Consular Affairs develop and
implement a comprehensive monitoring process, to include periodic reviews of expenditures, for
the Border Security Program that will ensure that border security funds are used in accordance
with guidelines.




                                            32
                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                      Appendix A
                                  Scope and Methodology

      The purpose of this audit was to determine to what extent consular fees collected by the
Department of State (Department) were used for mission priorities of the Border Security
Program and in accordance with Department guidelines.

        The Office of Inspector General (OIG) conducted fieldwork for this audit from
September 2011 to February 2012 at the following Washington, DC, bureaus: Consular Affairs
(CA), Resource Management (RM), Western Hemisphere Affairs (WHA), East Asian and
Pacific Affairs, South and Central Asian Affairs, and Diplomatic Security (DS). OIG also
conducted fieldwork at Mexico City, Mexico; Beijing and Guangzhou, China; and New Delhi,
India. In addition, OIG obtained information from officials in Mumbai, India, via
videoconference.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and conclusions
based on its audit objectives. Although data provided were not always complete and accurate (as
detailed in various sections of this report), OIG concluded that the data were sufficiently reliable
for the purposes of the report. OIG therefore believes that the evidence obtained provides a
reasonable basis for its findings and conclusions based on the audit objective.

       OIG issued the draft report for comment on May 25, 2012. After the draft audit report
was issued, OIG met with the Under Secretary for Management on July 9, 2012, who requested
that OIG modify the report to redirect six recommendations (Nos. 1, 2, 3, 4, 6, and 7) from the
Under Secretary to CA. OIG modified the report as appropriate and reissued the draft report to
CA for comments on July 12, 2012.

        To obtain background for the audit, OIG researched and reviewed public laws and United
States Code sections related to consular fees, Government Accountability Office guidance, the
Department’s Foreign Affairs Manual and Foreign Affairs Handbook, Department cables, bureau
and post strategic plans, budget-related documents, and other Department guidance and reports.

        During the audit, OIG performed work to determine to what extent consular fees
collected by the Department were used for mission priorities of the Border Security Program and
in accordance with Department guidelines. OIG focused its work on certain consular fees that
the Department indicated were used specifically for the Border Security Program:

              Machine Readable Visa (MRV) Fee
              Western Hemisphere Travel Initiative (WHTI) Passport Surcharge
              Passport Security Surcharge
              Immigrant Visa (IV) Security Surcharge
              Diversity Immigrant Visa (DV) Lottery Surcharge

                                             33
                                        UNCLASSIFIED
                                              UNCLASSIFIED



                  H and L (H&L) Visa Fraud Prevention and Detection Fee

        To accomplish the audit objective, OIG gained an understanding of the Border Security
Program. Specifically, OIG interviewed Department officials to obtain an understanding of the
process for requesting and allotting border security funds to bureaus and posts; spending border
security-related consular fees, both domestically and overseas; monitoring expenditures; and
establishing goals or priorities for the program. OIG also gained an understanding of bureaus’
roles and responsibilities. Additionally, OIG interviewed Department and post officials to gain
an understanding of the process to determine funding for personnel-related costs.

        OIG obtained the Department’s FY 2010 expenditure database and identified the universe
of Border Security Program expenditures that were both obligated and expended in FY 2010.
OIG developed a sampling methodology to test border security expenditures and developed a
plan for ensuring overseas consular positions were funded correctly. (Information on the
sampling methodology and the plan are detailed in the section “Detailed Sampling Methodology
and Results” in this appendix.) OIG reviewed supporting documentation for a selected sample of
expenditures in CA and DS; reviewed supporting documentation for a sample of expenditures at
Beijing (China), Mexico City (Mexico), and New Delhi (India); and reviewed documentation
related to the funding source for a sample of American and locally employed staff from the
consular sections at each of these posts.

Prior OIG Reports

        In its review of internal OIG audit and inspection reports relating to border security
expenditures, OIG identified one audit report related to expenditures of consular fees.1 However,
since the report was issued in 1998, OIG determined that the findings would not be relevant to
the current audit. Although OIG identified inspection reports related to CA, these reports did not
include findings specifically related to Border Security Program expenditures.

Use of Computer-Processed Data

        The audit team used computer-processed data from the Department during this audit.
OIG obtained FY 2010 consular fee expenditure information from the Global Financial
Management System, identified nonpersonnel expenditures by consular fee type for FY 2010,
generated a sample of nonpersonnel related expenditures for testing, and tested the Border
Security Program expenditure data from the Global Financial Management System. Issues
identified during fieldwork are detailed in the Audit Results section, Finding B, “OIG Could Not
Determine How Some Border Security Funds Were Used and Found That Other Funds Were Not
Used in Accordance With Guidelines or Financial Instructions.” Other than the work described,
OIG did not audit the data from these systems.

      OIG determined that payroll expenditures could not be identified by employee name,
number, or other criteria within the Global Financial Management System. Because of the

1
    Expenditure of Machine Readable Visa Fees (98-FM-018, Aug. 1998).
                                                   34
                                              UNCLASSIFIED
                                        UNCLASSIFIED


limitations of the data, OIG could not select a sample of personnel expenditures for testing.
Therefore, OIG did not rely on the Global Financial Management System for testing personnel
expenditures.

        OIG obtained information from CA’s Consular Workload Statistical System (CWSS),
which identifies consular employees, both American direct hire and locally employed staff, by
post, position, and fiscal year. OIG used this information to select a sample of employees to
interview at each post to determine their roles and responsibilities during FY 2010. OIG
performed testing of the data during its fieldwork. OIG also obtained information from CA’s
Consular Affairs Post Allotment System to determine whether CA had approved the use of
consular fees for certain expenditures. Issues identified during fieldwork are detailed in the
Audit Results section, Finding B. Other than the work described, OIG did not audit the data
from these systems.

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG gained an understanding of and tested the controls over consular fee
expenditures at posts and bureaus. OIG discussed exceptions identified during its testing of
expenditures with post and bureau officials to better understand the reasons for the exceptions,
which would highlight internal control issues. In addition, OIG gained an understanding of the
Department’s policies and procedures related to consular fee expenditures and of how the
Department oversees these expenditures. Work performed on internal controls during the audit is
detailed in the Audit Results section of the report.

Detailed Sampling Methodology and Results at Selected Posts and Bureaus

        OIG’s sampling objective was to determine whether the Department spent border
security-related funds for allowable purposes.

       Selection of Posts

         For its audit, OIG selected overseas posts in China, Mexico, and India. OIG used a
nonstatistical sampling method known as “judgment sampling.” Because this method uses
discretionary criteria to effect sample selection, the audit team was able to use information from
its preliminary work to aid in making informed selections.

        The primary consideration in selecting the sites, which are shown in Table 1, was the
total amount of border security funds expended during FY 2010. The three countries selected
had the highest amount of border security expenditures during FY 2010. The geographical
distribution of the posts was another factor considered; the three countries selected are in
different regional bureaus. In addition to performing work at the three embassies, OIG, to gain a
complete understanding of the overseas use of border security funds, chose to perform work on
expenditures made at two overseas consulates: Guangzhou, China, and Mumbai, India.

                                             35
                                        UNCLASSIFIED
                                               UNCLASSIFIED


      Table 1. Posts With Highest Amounts of Border Security Program Expenditures
      During FY 2010
                                     Amount
              Post                  Expended                   Regional Bureau
       Mexico                         $9,768,579   Western Hemisphere Affairs
       India                          $3,976,091   South and Central Asian Affairs
       China                          $2,928,221   East Asian and Pacific Affairs
       Brazil                         $2,451,239   Western Hemisphere Affairs
       Japan                          $1,936,700   East Asian and Pacific Affairs
       Germany                        $1,830,028   European and Eurasian Affairs
       The Philippines                $1,465,592   East Asian and Pacific Affairs
       Colombia                       $1,447,141   Western Hemisphere Affairs
       United Kingdom                 $1,413,286   European and Eurasian Affairs
       Saudi Arabia                   $1,365,574   Near Eastern Affairs
      Source: OIG analysis of expense databases.


       Selection of Bureaus

      For its audit, OIG selected CA, RM, WHA, Bureau of East Asian and Pacific Affairs,
Bureau of South and Central Asian Affairs, and DS. OIG used the same nonstatistical sampling
method that it used for selecting overseas locations (judgment sampling) to select the bureaus.

        One consideration for choosing to perform work at these six bureaus was the amount of
expenditures related to the Border Security Program extracted from the FY 2010 expenditures
database, as shown in Table 2. OIG chose the top two bureaus (CA and RM) in terms of
expenditures related to the border security program. These two bureaus accounted for about
90 percent of the domestic expenditures. Another factor considered was the regional bureaus
related to the posts selected for site visits. Although only one of the regional bureaus (WHA)
related to the posts selected for site visits had domestic expenditures pertaining to the border
security program, OIG performed limited procedures at the three regional bureaus (WHA,
Bureau of East Asian and Pacific Affairs, and Bureau of South and Central Asian Affairs).
Finally, although DS had not spent a significant amount of funds related to border security in FY
2010 (only about 2 percent), OIG included DS in its audit work because DS is a key bureau for
fraud deterrence.

        Although OIG had planned on performing limited procedures at each of these bureaus, it
performed testing only at CA and DS. The three regional bureaus had either very little domestic
expenditures or no domestic expenditures. The RM expenditures were transfers of funds to the
central payroll account. Payments to personnel were authorized; consequently, OIG determined
that no testing would be performed on the transfer of funds in RM.




                                                    36
                                               UNCLASSIFIED
                                                    UNCLASSIFIED


       Table 2. FY 2010 Domestic Border Security Program Expenditures by Bureau/Entity


                          Bureau                         Amount Expended            Percent of Total
        Bureau of Consular Affairs                                  $685,145,821                52.34
        Bureau of Resource Management                               $510,466,000                38.99
        Bureau of Western Hemisphere Affairs                         $47,491,500                 3.36
        Bureau of Administration                                     $24,666,108                 1.88
        Bureau of Diplomatic Security                                $23,373,971                 1.79
        Bureau of Human Resources                                     $5,997,299                 0.46
        Bureau of Information Resource
        Management                                                    $3,906,682                 0.30
        Bureau of Near East and South Asian
        Affairs                                                     $3,000,000                   0.23
        Foreign Service Institute                                   $2,852,595                   0.22
        Unknown                                                     $2,225,746                   0.17
        Total                                                   $1,309,125,723                 100.00
       Source: OIG analysis of expense databases.


         Identification of the Border Security Program Expenditure Universes

        OIG modified the databases of border security expenditures for FY 2010 to arrive at the
overall target universe, or population, which is the universe to be covered. Specifically, OIG
extracted the dollar value and number of expenditures that were related to the Border Security
Program categories and sorted the data by post for overseas expenditures and by bureau for
domestic expenditures. Personnel and nonpersonnel expenditures were extracted separately, and
all negative expenditures were excluded.

      Nonpersonnel Universes. As shown in Table 3, for nonpersonnel overseas expenditures,
OIG separately considered expenditures allotted to posts by the regional bureaus and CA and by
DS.

Table 3. Universes of Nonpersonnel Expenditures for Overseas Posts
                  Nonpersonnel Funds Allotted to     Nonpersonnel Funds Allotted to
                Posts by Regional Bureaus and CA               Posts by DS
                           Universe                  Universe           Universe            Universe
        Post                Total                    Amount              Total              Amount
 Beijing, China                       867                $567,532                  134            $50,171
 Mexico City,
 Mexico                             1,366                $799,214                  624            $150,259
 New Delhi,
 India                              2,205              $1,822,547                474             $136,868
 Total                              4,438              $3,189,293              1,232             $337,298
Source: OIG analysis of expense databases.


                                                         37
                                                    UNCLASSIFIED
                                                   UNCLASSIFIED

        As shown in Table 4, for nonpersonnel domestic expenditures, OIG sorted expenditures
by the specific type of fund used.

Table 4. Universes of Nonpersonnel Domestic Expenditures by Fund Type for CA and DS
                                   CA                              DS
                        Nonpersonnel Expenditures        Nonpersonnel Expenditures
                                 Universe              Universe        Universe       Universe
          Fee Type                Total                Amount           Total         Amount
    Machine Readable
    Visa (MRV)                          18,715          $291,767,717          4,527   $18,860,180
    Western Hemisphere
    Travel Initiative
    (WHTI) Passport
    Surcharge                                548        $122,153,240              0              0
    Passport Security
    Surcharge                                 81        $250,582,746              0              0
    Immigrant Visa (IV)
    Security Surcharge                       205         $12,230,735              0              0
    Diversity Immigrant
    Visa (DV) Lottery
    Surcharge Fee                            193            $570,968              0              0
    H and L (H&L) Visa
    Fraud Prevention and
    Detection Fee                           88            $5,225,687            665    $1,926,213
    Total                               19,830          $682,531,093          5,192   $20,786,393
Source: OIG analysis of expense databases.
 
        Personnel Universes. To determine the universe for overseas personnel testing, OIG
analyzed the expenditure database for each of the three countries (China, India, and Mexico) in
which work was going to be performed. OIG found that the database did not contain the
information necessary to test the personnel expenditures. Specifically, the database did not
contain the information on each expenditure by employee. OIG was not able to obtain detailed
information from the accounting system helpdesk or from Payroll Customer Support at the
Charleston (SC) Financial Service Center. Helpdesk personnel responded that they were unable
to assist the audit team, and Payroll Customer Support personnel stated that it would be a
“massive task.” Because of the lack of assistance as well as time constraints, OIG tested
personnel expenditures differently than what it had originally planned.

        Specifically, OIG tested personnel expenditures by analyzing the work performed by
consular staff and the funding used for the staff salaries and benefits. After reviewing the
CWSS, the audit team divided consular staff into categories as follows:

             Position Funded by Border Security Program – American
             Position Funded by Border Security Program – Foreign Service National
             Position Funded by Program – American
             Position Funded by Program – Foreign Service National
                                                        38
                                                   UNCLASSIFIED
                                             UNCLASSIFIED


             Unfilled Positions Funded by Border Security Program – American
             Unfilled Positions Funded by Border Security Program – Foreign Service National

         Information on the number of employees by category by overseas location is in Table 5.

Table 5. Number of Consular Personnel at Overseas Locations
                                                                         Number of           Number of
     Post               Fund Type              Employee Type           Positions Filled   Positions Unfilled
                 Border Security            American                                 31                    9
                 Border Security            Foreign Service National                 14                    0
    Beijing      Program Funded Position    American                                  6       Not Applicable
                 Program Funded Position    Foreign Service National                 23       Not Applicable
                 Subtotal Beijing                                                    74                    9
                 Border Security            American                                 37                    2
                 Border Security            Foreign Service National                 10                    2
 Guangzhou       Program Funded Position    American                                  4       Not Applicable
                 Program Funded Position    Foreign Service National                 53       Not Applicable
                 Subtotal Guangzhou                                                 104                    4
                 Border Security            American                                 58                    2
                 Border Security            Foreign Service National                 33                    7
 Mexico City     Program Funded Position    American                                  4       Not Applicable
                 Program Funded Positions   Foreign Service National                 43       Not Applicable
                 Subtotal Mexico City                                               138                    9
                 Border Security            American                                 31                    2
                 Border Security            Foreign Service National                 24                    3
   Mumbai        Program Funded Position    American                                  0       Not Applicable
                 Program Funded Position    Foreign Service National                 26       Not Applicable
                 Subtotal Mumbai                                                     81                    5
                 Border Security            American                                 23                    3
                 Border Security            Foreign Service National                 33                    1
  New Delhi      Program Funded Position    American                                  5       Not Applicable
                 Program Funded Positions   Foreign Service National                 23       Not Applicable
                 Subtotal New Delhi                                                  84                    4
Source: OIG analysis of data in CWSS.


        Domestically, OIG found that the personnel expenditures for CA and DS–the two
bureaus where testing was planned–were immaterial. Specifically, for CA, out of 21,253
expenditures, totaling $685,145,821, only 1,423 expenditures, totaling $2,614,728, were
personnel related, which is only 0.38 percent of the total amount. For DS, out of 5,296
expenditures, totaling $20,846,633, only 104 expenditures, totaling $60,240, were personnel
related, which is only 0.29 percent of the amount of the universe. Because of these relatively

                                                  39
                                             UNCLASSIFIED
                                        UNCLASSIFIED


small totals and the lack of readily available information on the individual employees paid, OIG
did not perform testing on domestic personnel expenditures.

       Selection of Expenditure Samples and Testing Results

        OIG selected samples to test overseas nonpersonnel expenditures funded by allotments
from the regional bureaus and CA separately from DS. OIG also performed testing of the
funding for a sample of consular personnel at overseas locations. In addition, OIG separately
tested domestic nonpersonnel expenditures from CA and DS.

       OIG noted that the universe of expenditures included certain negative expenditures and
excluded them when developing the universe of expenditures to test. However, OIG wanted to
gain an understanding of the types of activities that resulted in negative expenditures. Therefore,
OIG randomly selected 10 negative expenditures at the three overseas posts and at CA to
determine the reasons for these expenditures. OIG found several reasons for the negative
expenditures. For example, some of the expenditures were canceled, other expenditures were for
refunds from the value added taxes at post or overpayments to employees or vendors, and still
other negative expenditures were for error corrections.

        Overseas Nonpersonnel Samples. OIG tested funds allotted to overseas posts by DS
separately from funds allotted to posts by the regional bureaus and CA. The funding from the
regional bureaus and CA was the most significant funding source for overseas nonpersonnel
expenditures related to the Border Security Program. To test these expenditures, OIG employed
judgment sampling. Specifically, OIG sorted the list of positive expenditures for each post by
dollar amount from highest to lowest and then chose the largest dollar expenditures until the
cumulative total reached about 70 percent of the universe amount. Consequently, OIG was able
to concentrate its testing on the highest dollar expenditures at each post. This procedure yielded
the required sample size at each of the posts to attain the 70 percent target. However, OIG found
some canceled expenditures, which necessitated substitutions. Consequently, the target
percentage was not realized. Nevertheless, the total expenditures tested totaled over 60 percent
of the dollar amount of the universe at each post, and the overall rate at the three posts was about
66 percent, although only about 10 percent of the total number of expenditures at all of the posts
were tested, as shown in Table 6.

        For each of the CA-allotted sample items, OIG determined the allowability of the
expenditures based on CA’s Post Allotment Funding Matrix. The regional bureaus did not have
formal guidance on the types of activities that were allowable from regional bureau-allotted
funds. Therefore, OIG used the bureau-approved post budgets and advices of allotment to make
a preliminary determination on the allowability of regional bureau-allotted border security funds.
To perform its testing, OIG obtained supporting documentation, such as invoices, to determine
whether posts had expended funds in accordance with CA’s guidelines or approved financial
instructions.

       As shown in Table 6, OIG determined that out of 431 expenditures, totaling $2,086,517,
71 expenditures, totaling $165,738 (or 7.94 percent of amount of expenditures), were not made
                                             40
                                        UNCLASSIFIED
                                                    UNCLASSIFIED

in accordance with CA’s guidance or approved financial instructions and had not been separately
approved by CA or the regional bureaus.

Table 6. Results of Testing Overseas Nonpersonnel Expenditures From Funds Allotted by
CA and the Regional Bureaus
                                                                                Number of            Amount of
                                                                             Exceptions Not in   Exceptions Not in
                                                                             Compliance With     Compliance With
                                                                              Guidance and       Guidance and Not
                                                                              Not Allowed by     Allowed by CA or
              Universe       Universe          Number            Amount         CA or the           the Regional
   Post        Total          Amount            Tested           Tested      Regional Bureau          Bureau
 China             867         $567,532              64           $381,461                   2              $11,304
 Mexico          1,366         $799,214             224           $510,663                 67             $150,219
 India           2,205       $1,822,547             143         $1,194,393                   2               $4,215
 Total           4,438       $3,189,293             431         $2,086,517                 71             $165,738
                                               (9.71%)           (65.42%)            (16.47%)              (7.94%)
Source: Prepared by OIG based on the results of its testing.

        DS funds certain overseas expenditures using border security funds. OIG wanted to
ensure it tested some of these expenditures and therefore randomly selected 10 expenditures
funded by DS allotments for testing at each overseas location. During the testing of DS-allotted
funds overseas, OIG obtained supporting documentation, such as invoices, to determine whether
posts had spent the funds in accordance with DS-approved post spending plans. The results of
the testing at each overseas location for nonpersonnel expenditures funded by DS are in Table 7.

 Table 7. Results of Testing Overseas Nonpersonnel Expenditures From Funds Allotted by
 DS
                  Universe         Universe        Number          Amount        Number of         Amount of
     Post          Total           Amount           Tested         Tested        Exceptions        Exceptions
   China                134          $50,171             10           $1,256               0                    0
   Mexico               624         $150,259             10           $1,871               2                 $343
   India                474         $136,868             10           $2,521               0                    0
   Total              1,232         $337,298             30           $5,648               2                 $343
                                                   (2.44%)          (1.67%)          (6.67%)             (6.07%)
 Source: Prepared by OIG based on the results of its testing.

        OIG sampled 30 DS expenditures, totaling $5,648, for testing and determined that
28 expenditures, totaling $5,305 (93.93 percent of amount of expenditures), were for allowable
items. DS spent border security funds at posts to support its Assistant Regional Security Officer-
Investigator program. For example, funds were used for residential utilities, cell phone fees, and
vehicle maintenance. Of the two remaining expenditures, OIG could not determine whether one
expenditure was allowed because the post could not provide sufficient supporting
documentation, and the other expenditure was not in compliance with the guidelines.
Specifically, the post paid approximately $260 for residential electricity expenses for an
individual in a consular position using DS-allotted funds instead of CA-allotted funds.

                                                         41
                                                    UNCLASSIFIED
                                                UNCLASSIFIED



      Overseas Personnel Samples. For overseas personnel testing, OIG planned to sample,
when available, six positions at all five posts for each of the following categories:

           Position Funded by Border Security Program – American
           Position Funded by Border Security Program – Foreign Service National
           Position Funded by Program – American
           Position Funded by Program – Foreign Service National
           Unfilled Positions Funded by Border Security Program – American
           Unfilled Positions Funded by Border Security Program – Foreign Service National

         Given these parameters, OIG determined, during planning, that it could test a total of
135 positions. However, OIG noted, during fieldwork, that several of the positions that had been
filled in FY 2010 were now unfilled, thereby necessitating substitutions. Additionally, some
individuals were not available to be interviewed. The sample sizes at the various posts were also
affected by disparities between the CWSS data and post documentation, as shown in Table 8.

Table 8. Overseas Unfilled Personnel Sample Sizes and Results
                                                                                  Number of       Number of
                                                   Original                        Positions       Positions
                                                    Total            Original     Correctly      Filled (for at
                                                  Number of         Sample of    Classified by      Least a
     Post         Unfilled Positions in FY         Positions        Positions     CWSS as        Portion of FY
                     2010 per CWSS                 Unfilled          Unfilled      Unfilled          2010)
                 Border Security – American                   9              6               4                2
  Beijing        Border Security – Foreign
                 Service National                             0             0                0                0
                                    Subtotal                  9             6                4                2
                 Border Security – American                   2             2                2                0
  Guangzhou      Border Security – Foreign
                 Service National                             2             2                2                0
                                    Subtotal                  4             4                4                0
                 Border Security – American                   2             2                0                2
  Mexico         Border Security – Foreign
  City           Service National                             7             5                5                0
                                    Subtotal                  9             7                5                2
                 Border Security – American                   2             2                2                0
  Mumbai         Border Security – Foreign
                 Service National                             3             3                0                3
                                    Subtotal                  5             5                2                3
  New Delhi      Border Security – American                   3             3                3                0
                 Border Security – Foreign
                 Service National                             1              1              0                 1
                                    Subtotal                  4              4              3                 1
                 Total                                       31             26             18                 8
Source: OIG analysis of data provided by CWSS and overseas posts.



                                                     42
                                                UNCLASSIFIED
                                                UNCLASSIFIED


        Although OIG originally selected the positions to test overseas using the CWSS database,
OIG found that sometimes the information obtained from the CWSS database differed from
information in the human resource documents at the overseas posts. In those instances, the post
data prevailed because the post data were deemed more accurate. Consequently, positions were
sometimes moved from one of the two unfilled categories to one of the four filled and funded
categories. The net result of various necessary adjustments was that OIG tested a total of
108 positions distributed among the overseas posts, as shown in Table 9.

Table 9. Overseas Filled and Funded Personnel Sample Sizes and Results
                                                                                     Number
                                                         Number                    Performing        Number
                                                            of                     Work Other       Performing
                   Filled and Funded Position            Positions       Number    Than Border    Border Security
    Post                    Category                      Tested         Correct     Security         Work
                Border Security – American                       4             4              0               N/A
                Border Security – Foreign Service
                National                                             5         5             0               N/A
Beijing
                Program – American                                   6         0           N/A                 6
                Program – Foreign Service National                   8         0           N/A                 8
                                           Subtotal                 23         9             0                14
                Border Security – American                           0         0             0               N/A
                Border Security – Foreign Service
                National                                             5         5             0               N/A
Guangzhou
                Program – American                                   5         0           N/A                 5
                Program – Foreign Service National                  10         0           N/A                10
                                           Subtotal                 20         5             0                15
                Border Security – American                           4         4             0               N/A
                Border Security – Foreign Service
Mexico          National                                             6         6             0               N/A
City            Program – American                                   7         2           N/A                 5
                Program– Foreign Service National                    6         0           N/A                 6
                                           Subtotal                 23        12             0                11
                Border Security – American                           6         6             0               N/A
                Border Security – Foreign Service
                National                                             9         9             0               N/A
Mumbai
                Program – American                                   0         0           N/A                 0
                Program – Foreign Service National                   6         0           N/A                 6
                                           Subtotal                 21        15             0                 6
                Border Security – American                           8         8             0               N/A
                Border Security – Foreign Service
                National                                         4             4             0               N/A
 New Delhi
                Program – American                               2             0           N/A                 2
                Program – Foreign Service National               7             0           N/A                 7
                                           Subtotal             21            12             0                 9
                Total                                          108            53             0                55
Source: OIG analysis of data provided by CWSS and overseas posts.


                                                     43
                                                UNCLASSIFIED
                                                   UNCLASSIFIED


        For each of the tested positions, OIG determined the appropriateness of funding used for
the work performed. OIG testing disclosed that of 108 individuals, 55 individuals (50.9 percent)
were performing work that was not allowable per the funding source. However, none of the
55 individuals were funded with Border Security Program funds. Rather, all 55 individuals were
funded with Diplomatic and Consular Program funds but were performing work related to border
security.

        Domestic CA Nonpersonnel Testing. To test domestic nonpersonnel expenditures from
CA, OIG selected all expenditures above various thresholds or cutoff amounts for each fee type
of expenditure, thereby allowing OIG to concentrate audit efforts on the highest dollar
expenditures for each fee type. Based on this sampling methodology, OIG planned to test a total
of 276 expenditures, totaling $547,233,035. However, OIG noted during fieldwork that seven of
the expenditures either were canceled or were attributable to error corrections. Nevertheless, the
valid expenditures that were actually tested encompassed more than 70 percent of the
nonpersonnel funds spent domestically by CA, although less than 2 percent of the expenditures
were tested. Specifically, of CA’s 19,830 expenditures, totaling $682,531,093, OIG tested
269 expenditures, totaling $496,598,715, which was 72.76 percent of the entire amount of CA’s
expenditures, as shown in Table 10.

       For each of these sample items, OIG determined the allowability of the expenditures
based on CA’s Consular Fee Authorities guidelines. To perform its testing, OIG obtained
supporting documentation, such as invoices, to determine whether CA had expended funds in
accordance with its guidelines.

        As shown in Table 10, OIG determined that out of a sample of 269 expenditures, totaling
$496,598,715, 187 expenditures, totaling $279,568,710 (56.30 percent of amount of
expenditures), were not used strictly in accordance with CA guidelines or OIG could not
determine how the funds were used because of insufficient supporting documentation. Two of
the category types, Passport Security Surcharge and WHTI, had the largest rates of error:
85 percent and 100 percent, respectively.

Table 10. Domestic Nonpersonnel Positive Expenditure Testing for CA
  Fee         Universe        Universe          Number          Amount        Number of     Amount of      Cutoff
  Type         Total          Amount             Tested         Tested        Exceptions    Exceptions     Amount
 MRV              18,715     $291,767,717               21     $128,246,638            4      $8,693,000   $1,000,000
 WHTI                548     $122,153,240              111     $101,944,581          111    $101,944,581    $100,000
 Passport              81    $250,582,746               80     $250,582,138           68    $168,836,446    $200,000
 IV                  205      $12,230,735               19      $10,475,684            0              0     $250,000
 DV                  193          $570,968                7       $151,862             4        $94,683      $15,000
 H&L                  88       $5,225,687              31        $5,197,812             0              0     $20,000
 Total            19,830     $682,531,093             269      $496,598,715           187   $279,568,710
                                                 (1.36%)          (72.76%)      (69.52%)       (56.30%)
Source: Prepared by OIG based on the results of its testing.


                                                        44
                                                   UNCLASSIFIED
                                                   UNCLASSIFIED


        Domestic DS Nonpersonnel Testing. To test domestic nonpersonnel expenditures from
DS, OIG selected all expenditures above a threshold or cutoff amount for each of the two types
of fee categories used at DS, thereby allowing OIG to concentrate audit efforts on the highest
dollar expenditures for each type of DS expenditures. This sampling methodology encompassed
about 75 percent (74.59 percent) of total nonpersonnel funds spent domestically by DS, although
less than one percent (0.67 percent) of the expenditures were tested. In fact, this methodology
provided testing coverage for more than 75 percent of the dollars spent from MRV fees and more
than 50 percent of the dollars spent from H&L fees.

      During the testing of domestic DS-allotted funds, OIG obtained supporting
documentation, such as invoices, to determine whether DS had spent the funds in accordance
with DS spending plans.

        As shown in Table 11, OIG found that out of a sample of 35 expenditures, totaling
$15,503,861, three expenditures, totaling $3,421,014 (22.07 percent of amount of expenditures),
were not in compliance with DS spending plans. DS had erroneously funded some local guard
services provided to Department annexes with MRV funds. DS was aware of this error, but
instead of correcting the entries in the accounting system, it chose to use other funds to pay for
expenditures that could have been funded using border security-related funding. As of June
2012, DS had reimbursed the Border Security Program about $1.4 million using this method.
However, the remaining amount of approximately $2.1 million had not been reimbursed.

Table 11. Domestic Nonpersonnel Positive Expenditure Testing for DS


 Fee        Universe         Universe         Number            Amount       Number of        Amount of      Cutoff
 Type        Total           Amount            Tested           Tested       Exceptions       Exceptions     Amount

 MRV              4,527     $18,860,180               29       $14,502,300                3     $3,421,014   $100,000
 H&L                665      $1,926,213              6          $1,001,561             0                 0    $50,000
                                                    35         $15,503,861             3        $3,421,014
 Total            5,192     $20,786,393        (0.67%)           (74.59%)        (8.57%)         (22.07%)
Source: Prepared by OIG based on the results of its testing.




                                                        45
                                                   UNCLASSIFIED
                                            UNCLASSIFIED



                                                                                                   Appendix B
                             CA Post Allotment Funding Matrix




                                                                                      CAPoSl         ca u b ... l ~ !rCA
                                Item                                                 AliormerllS
                                                                                     AnOlmeru      lunds  r~m"'n Dr
                                                                                                   lundS remilln     lit ~
                                                                                                                         Ih ~
                                                                                                           "f1n~ Y"M
                                                                                                      ~n!lOfln~'I"M
                                                                                                      ~n!l

Object Class 1100/1200
             1100/1200·- Salanes and Benefits




                                                slgnlllcWlt lnoud portfolio. and _




                                                 46
                                            UNCLASSIFIED
                                                                  UNCLASSIFIED



                                                                                      May be funded                      Funded on a case·b
                                                                                     through CA Post Not funded throug     case basis if CA
                                                 Item                                    Allotments        CA Post
                                                                                                          Allotments     funds remain at the
                                                                                       (MRV, DVorH& Las
                                                                                       (MRV,DVorH&L  as
                                                                                                                            end of the year
                                                                                         appropr iate )
                                                                                         appropriate
 Brochures, n
 Brochures  nyers,
               rs outreach materials                                                          xX
Object Class     2500 - Other (Contractual) Services




Consular Agents
                salaries & benefits                                                           X
                                                                                              X


~
                                                                                                             X
                                                                                                             X
                                             I
                            ,al conGen
                            ,at cOnGen (traveland
                                        (lraVel and per diem)                                                X
                                                                                                             X
                     flo
                     fto               poslfor
                                     , postror             "" tralnlno                                                            X
                                                                                                                                  X
                                      I
 Fobs for Consular Agenls
                   Agents                                                                     X
                                                                                              X
                                                                                                             X
                                                                                                             X
                         urnilure
                         urniture                                                                            X
                                                                                                             X
               t secumy GUardS                                                                               X'


   (The 11* indicates that CA funds do support this item but through consular fees provided to the appropriate regional or functional
             bureau. Consular ch
                              chiefs
                                 iefs shou
                                      should
                                           ld not request
                                                  reque.t these
                                                          the.e funds directly
                                                                      d irectly from CA in the MRV,
                                                                                               MRV, DV,
                                                                                                    DV, or H&L data calls.)




                                                                       47

                                                                  UNCLASSIFIED

                                  UNCLASSIFIED



                                                                                        Appendix C

                                                    United States Department of State

                                                    Assistant Secretary oJState
                                                                        oJStme
                                                    Jor Consular Affairs
                                                    Jar

                                                     Washington,, D.C. 20520
                                                     Washington

UNCLASSIFIED                                        July 24, 2012

MEMORANDUM

TO:          OIG - Harold W.   G~isel


FROM:        CA - Janice L.   Ja~
                              Ja~
SUBJECT: Revised Draft Report on Audit ojDepartment oJState Use oj
         Consular Fees Collected in Support oJthe Border Security Program

      Thank you for the opportunity to respond to the revised draft report on the
Audit ojDepartment ojState Use oj Consular Fees Collected in Support oj the
Border Security Program
                Program.. The Bureau of Consular Affairs has provided
comments below to the six recommendations for which CA is the action entity.

Recommendation 1:  I: OlG
                      OIG recommends that the Bureau oj Consular AJJairs
                                                                       Affairs (CA)
Jormalize its authority over the Border Security Program by modifying the
Foreign AJJairs
        Affairs Manual (I (1 FAM 150)
                                   250) to recognize CA's role as the overall
program management oJfice Jor for the Border Security Program.

       CA agrees with this recommendation and believes formalizing CA's
authority as the overall program management office for the Border Security
Program will increase the transparency of the use of consular fees in accordance
with Department guidelines and mission priorities. CA is in the process of revising
1I F AM 250 to outline CA's authority and anticipates submitting all proposed
   FAM
revisions for the appropriate clearances by mid-August. CA has received initial
clearance from the Office of the Legal Adviser (LIM, LILFA,
                                                      LILF A, and LlCA) to add the
following language to the Assistant Secretary's responsibilities in 1 F
                                                                      FAM
                                                                        AM 251.1,
under a new subsection:

      (f) Oversees the Department's use of fee revenue collected fo forr consular
      services (i.e., passport and visa services and provision of consular services)
      and retained by the Department
                            Depattment and the allocation of consular fees to other
      Bureaus. Establish
                 Establishes
                           es and oversees implementation of policies and
      procedures to ensure that consular fees, including consular fees allocated to

                                 UNCLASSIFIED




                                       48

                                  UNCLASSIFIED
                                 UNCLASSIFIED





                                 UNCLASSIFIED
                                     - 2-
                                       2-
      other Bureaus, are used for authorized purposes in accordance with
      applicable law and regulation.

Recommendation 2: OIG recommends that the Bureau of Consular Affairs
develop clear roles and responsibilities for all parties involved in the Border
Security Program and codify this information in the Foreign Affairs Manual.

       CA agrees with this recorrunendation
                              recommendation.. CA plans to formalize the roles and
responsibilities for all parties involved in the Border Security Program by
developing Service Level Agreements (SLAs) with Department Bureaus that
receive consular fee funding. These SLAs will defmedefine clear expectations between
CA and the relevant Bureau. CA anticipates developing and implementing SLAs
by the start ofFY
             of FY 2013 with the following Department of State Bureaus:
Administration (A), Diplomatic Security (OS), the Foreign Service Institute (FSI),
Information Resource Management (IRM), (lRM), the Office of the Legal Adviser (L),
and Overseas Building Operations (OBO). CA will work with the Office of
Directives Management (AlGlSIDIR)
                           (NGISlDlR) to codity the SLA procedure in the relevant
section of the Foreign Affairs Manual.

Recommendation 3: OIG recommends that the Bureau of Consular Affairs
develop processes to prioritize Border Security Program funding requests and
oversee the allocation offunding for prioritized projects of the Border Security
Program.

       CA agrees with this recommendation and has made several adjustments
since FY 2010 (the scope of the OIG audit) as to how the Bureau manages its
resources. In FY 20 11,
                      II , CA revamped the budget formulation process to include a
robust analytical review conducted by the Comptroller's Office, in order to
promote greater accountability and transparency. Under the new process
                                                                   process,, partner
bureaus and CA directorates are required to submit detailed budget justifications
and participate in formal hearings
                            hearings,, and CA approves funding requests based on the
resulting analysis. CA plans to utilize the new Bureau SLAs to further guide and
formalize the process for prioritizing Border Security Program funding requests
                                                                         requests..

Recommendation 4: OIG recommends that the Bureau of Consular Affairs
develop comprehensive performance goals and indicators for the Border Security
Program and a process to measure the program's accomplishments.

      CA agrees with this recorrunendation.
                          recommendation. Since FY 20 I 0, CA has pursued a
more comprehensive strategic planning process in order to develop an integrated
                                 UNCLASSIFIED




                                      49

                                 UNCLASSIFIED

                                  UNCLASSIFIED





                                  UNCLASSIFIED
                                      -3-
CA-wide plan. The Bureau also has taken an active role in the new strategic
planning and performance management processes developed under the
Quadrennial Diplomacy and Development Review (QDDR) implementation,
including volunteering as a pilot bureau for the new multi - year strategic planning
requirements.. CA will continue to work on these initiatives and expand to the
requirements
Border Security Program
                Program..

Recommendation 6: OIG recommends that the Bureau of Consular Affairs
         Department--wide guidance on the use of border security
develop Department                                      security--related funds
and disseminate the guidance to all bureaus and posts that receive border
security funds.

       CA agrees with this recommendation. The new SLAs will include guidance
on the development of budget requests for of Border Security Program funds by
partner bureaus. In addition, CA is in the process of significantly revising the post
allotment process, including updating the CA Post Allotment Fund     ing Matrix to
                                                               Funding
ensure continuity
       continuity,, transparency, and conformity to standard operating procedures.
To maintain consistency with systems currently utilized by overseas posts and
Washington, CA is committed to using Department IT tools such as the Resource
Allocation and Budget Integration Tool (WebRABlT) and the Consolidated
                                            (COAST).
Overseas Accountability Support Toolbox (COAST).

Recommendation 7: OIG recommends that the Bureau of Consular Affairs
develop and implement a comprehensive monitoring process, to include periodic
reviews of expenditures,for the Border Security Program that will ensure that
border security funds are used in accordance with guidelines.

        CA agrees with this recommendation and has recently created a bureau-wide
internal review program, which focuses on financial management and contract
administration oversight within the Bureau. As this review program is expanded,
CA plans to evaluate whether overseas posts are spending post-allocated Border
Security Program funds in accordance with Department guidelines. In order to
initiate a regular monitoring process of the us
                                             usee of consular funds by partner
bureaus, CA plans to add a review section to the Bureau Service Level
Agreements. The agreements will indicate how often the reviews will occur, likely
quarterly.

      In addition to our comments to the above recommendations, we suggest the
following revisions to the draft OIG report:


                                 UNCLASSIFIED




                                       50

                                  UNCLASSIFIED

                         UNCLASSIFIED





                         UNCLASSIFIED
                         UNCLASSlFfED
                             -4-
                             -4-
•   Page five of the report says the Office of the Comptroller was created
    in 2009 which is when staff began working in the new office. As
    written, the draft presents an inaccurate impression that the office was
    unstaffed for two years. For clarity, we suggest the following edit to
    the last sentence of the first bullet: The Office of the Comptroller is
    responsible for leading "all strategic activ
                                            activities
                                                 ities related to contracting,
    budgeting, accounting, resource management, and outreach related to
    resources.."
    resources

•   On page six, under the Regional Bureaus and Posts heading, we
    recommend adding a sentence indicating these were the
    responsibilities in FY 2010.

•   On page II (last paragraph)
                      paragraph),, we recommend clarifYing that CA
    obtains requests for overseas Border Security Program funding from
    posts using the Web
                    Web-- based Consular Affairs Post Allotment System.

•   On pages 16, 21, 22, and 26, the allowable fee usage for the Passport
    Security Surcharge is listed as "secure mail and postage." This
    language was mistakenly written as such on the Consular Affairs
    Revenue Authorities Guidelines. The Passport Security Surcharge
    legislation authorizes the Department to charge surcharges for
    consular services in support of enhanced border security, and the
    surcharge includes such components as facial recognition for book
    and card applications, enhanced fraud prevention programs, and
    enhanced security features on cards
                                    cards.. Therefore, the language for the
    authorized fee usage shou  ld
                          should  read "secure ma
                                               mail
                                                  il and to enhance the
    security of passport books and cards."




                         UNCLASSIFfED
                         UNCLASSIFIED




                              51

                         UNCLASSIFIED

                                   UNCLASSIFIED



                                                                                                Appendix D



                                                            Un itited
                                                                   ed State
                                                                      Statess De pa rtm
                                                                                    rtmee nt of St at
                                                                                                   atee

                                                             \\
                                                             1\~15h;'
                                                                ~IShi"I 1?lOfI.
                                                                        RI(/fI. D .C
                                                                                  .C.   20520

                                                            "·"·" ·05((/ 1(>.).:0' ·


                                                               JUN1810U
                                                               JUH18 10U

UNCLA
UNC  LASS
       SS IF IED
( UNCLASS
  UNCLA SS IFI ED w hen se
                        separa
                           paratt ed fr
                                     from
                                        om attac
                                           attachm
                                                 hment)
                                                   cnt)

INFORM ATIO N M EMO TO D E IP'U
INFORMATION                     TY INSPE
                              UTY        C TOR GENERAL
                                    NS PEC     GENERA L
li
UA        w. GE ISE L
   A ROLD W.          ~

FROM :             Eriic J. Boswe L Y
              DS - Er

SU BJ EC
      ECT:
         T: Draft Report Responesponse
                                     se - Audi t of Departm
                                                     epart ment of St ate Use of
                sulla r Fees Collected in Support of the Bor
            Connsu
            Co                                              Borde
                                                               derr Sec
                                                                    Secuur itity
                                                                               y Prog
                                                                                  rogrram
                                                                                       am,,
            AU
            AUD D / FM~12
                    F M ~12 -XX
                            · XX ., M ay 20112
                                             2

     Attached is th e B ureau
                         urea u or Diplomatic
                                      pl omatic Security's responsc
                                                            esponse to
 ecommendati
Recomme  ndat ioon S
                   5 of the subjec
                     orthe   ubjectt draft repo rt .
                                           report.



A ttachment
  uachment::
       As stated.




                                         UNC LASS  IFIED
                                             LA SS IF IED




                                        52

                                   UNCLASSIFIED
                                  UNCLASSIFIED





                                     UNCLASSIFIED

                  Audit of OCp:l  rtment of State
                            Department                    Conss ular
                                            St:lte Use of Con
            Fees Co
                 Collected
                    llected in Support  ufthe Border Securit
                               S upport ofthc                  y Pro
                                                       Secur ity     g ram
                                                                 Progra  m
                           (AUD / FM-12-XX , Ma y 2012)


(U) Recommendation
    Reco mme ndation 5: OIG recommends that the Bureau of Diplomat  Diplomatic
                                                                            ic
Security refund the $2 ._11 m illion erroneously charged to the Border Security
Progra
Prognlmm fund from the Wor Worldldwide
                                  wide Sec
                                        SL"CuriL
                                            urityy Protection fund.


(U) OS       spo n .~e (06/01/20
     DS R esponse                12): OS concurs with tlu s recommendation
                       (06101 /2012):                         recommendation.. During
1m
,m Office of the In    spector Gene ra
                    Inspector       rall (O IG) aud
                                         (010)      it orlhe Departmen
                                                audit        Departmentt of State  ' s use of
                                                                            StaLe 's
consular fee
          feess collected in support of the l30rdcr
                                               Border Security Program, auditors noticed
thai six In
Lim\        ter-Con invoices
         Inler-Con     invoices were erroneously charged against the Mac hinehi ne
Readable Visa ( MRV)MRV ) accowlt.
                            aCCOlmt. However, after further research by the Bureau of
Di plomatic Security ' s Chief F inancial Office
Diplomatic                                Officerr (DSIEXlCfO
                                                   (DSIEXlCfO)) and Domestic
Operat ions (DSIDO
Operations   (DSfDO)), it was discovered that a total of 67 FY 2010 invoices
                                                                           Invoices were
erroneously charged against the Worldwide Security Protection ( WS       WSP)P) account.
This emlr
     error o ccurred when the previous contract     ing officer ' s representative
                                          contracting
transposed the award lines [or l\1RV
                                  tvrRV and WSP [ro[romm the contract. As a re    sult,,
                                                                                result
MRV actually owes WSP $1 ,039 ,027 ( see attached In       voice s ummary).
                                                         Invoice     ummary).


(U) OSlEXlCFO ha   hass been in co
                                contact
                                   ntact with the Global Financial Mana     gement
                                                                     Management
System (GF  MS)) about correcting the pa
        (GFMS                            payy ments and decided , in consultation with
OS/OO , that a bulk reimbursement wou  would
                                           ld be the best o ption . Th
                                                                    Thee reimbursement
should occur hb y early Jul y 20 12. DS/J)O hahass also discu ssed methods with the
                                                        discussed
Office of Domestic Facilities Protection ( DS/OO/OFP
                                              DSIOO/DFP)) to mitigate any further
              harged
erroneously c ha        nvoices..
                 rged invoices




                                     UNCLASSIFIED




                                       53

                                  UNCLASSIFIED

                                            UNCLASSIFIED



                                                                                                                      Appendix E


                                                                         l init"d   StlltC"i; Dt"llIIrtnwllt   urSllltc

                                                                         C/.;e! Fj'lCln,.j(d ODi('r('

                                                                         WlI s IliI18 /(lrI , O.C. 20520


                                                                          JUN 14 2012
UNC LASSIFI ED

MEMORANDUM

TO:                DIG - Harold
                   GIG    orold W . Geisel

FROM:              RMiCFO - !om"
                   RMlCFO            Milli
                            lome, L. Mill t.

SUBJECT: Audit of Department of
                             ofSt.1te
                                State Use of Consular     Feess Collected
                                                Cons ular Fee   Collccted in
         Support of the Border Securit
                               Securityy Pro grJ.111 (AUD/ FM-12-XX)
                                         Program

      RM apprec  iates the opportunity to co
          appreciates                         mment on the s ubject Audit Report
                                            comment
dated May 2012.
          2012 . RM appreciates the in  incorporation
                                          corporation of previous co mments, but ha
                                                                  comments,      hass
conccms about severa
concerns        everall rema inin
                             iningg assertions regardi
                                               regardinng RM's role; comments
below,
below.

Page
Pal:,C 12,
        12. First paragraph, third sentence: "Although RMlBI) did not   nOl ha
                                                                            have  prog.rnm
                                                                               ve pro  gram
management oUlhority          thee Border Securi ty Pr
                nuthority for th                      ogram., it wa
                                                    Program      wass respon
                                                                      responsible
                                                                             sib le for
                                                                                    ror
allotting
all otting Border Security Pro   grum funds
                             Program   runds based on the funding
                                                          runding reque s ts developed
by various
     vnrious bureaus. RMIBP.        consultation
                         RMlBP, in co nsultation with CA, based the funding
                                                                        runding dec
                                                                                  deciis ion s
on the request
         reques ts for
                   ror funding and on what had been allotted the pr previou
                                                                       eviouss yea r."
                                                                               year."

R eSSllonsC
      lons c : RM/BP requests thatlhe    that the final report rephrase the misleadin     misleading   g state ment
ci ted above, which suggests that RMlBP
cited                                        RM/ BP lacked authority for             fo r exec utin g BSP
allonnent
allotment s during this   thi s period. Border Sec   Se<:ururitityy Fund
                                                                       undss are a descrip       tive budgetary
                                                                                       descriptive
term for certain offsetti ng fee collections that are ordinari ly credited to the
Diplomati c and nod Consular Program Programss accouni.
                                                  account. RM     RMIBP / BP exercised its allotment
authori
authorityty consistent w ith its respo ns ibilitie bili tiess under I FAM    FAM 226. T he report  repon 's
interpreta tition
               on of "p    rogrr3l11
                       "prog     alll ma na ge r" responsib
                                                    responsibilitie ilitiess le ads to allan interna
                                                                                              internall
contradiction.
contradictio    n. The repol1
                            report contends that no State Departm      Department   ent office
                                                                                           ffi ce had been
fomuill y des
fornHlll   dcsiig naled
                    nated as th  thee " program m::uUlger,"
                                                   manager," as       os de fined by the Pro        gram
                                                                                                Program
Manage
Managem   menlent lIn sti tute. If the audi
                       titutc.            auditt is suggesting
                                                    suggesti ng that only suc          uchh an offi
                                                                                                 oflice
                                                                                                      ce was
authorized to allot fund   funds.s, it would follow thaI  mat no fee collec           tion s sho
                                                                             collection            uld have been
                                                                                             s hould
allotted - irre spective of    o f th e Department's
                                         Department 's stan        ding fisca
                                                            standing        fi sca l authorities.



                                               UNCLASS I FI ED




                                                 54

                                            UNCLASSIFIED
                                       UNCLASSIFIED





                                          J.lliQ,ASSI
                                          UNCLASSIFI:IED
                                                      IED
                                                  -2-

P UI!,C
  age 13, Fourth paragraph: "There is liule    little tran  sparency into how funds being
                                                      transparency
al lotted by RM / BP to OIher
alloued                      other bureaus arc being used. Although CA hod      had not
                                                                                     nOI been
delegated the authority , it had hud begun to take a Icadership
                                                           leadership role in developing
budgets wiwilh  other
             th ot her bureaus that receive funding from the Border Security Program
and in improvin
         improving g transparency. In FY 2010,  2010. RM RM// BP worked with bureaus to
develop bo   rder seeu
           bordcr  securritity·related budgett requests. RMIBP would co
                             y·relalcd budge                                  confer
                                                                                nfcr with CA
officials about the bud
                      budget gct requests re cei ved from other burcuus
                                           received                 bureaus and ensure that CA
                    eque s ts prior 10
agreed with the requcs               to finali
                                        finalizing
                                               zing ththee allotments."
                                                           allotments."

Re s p o n se: Request
                 cquest the removal of the sen     tence "71lere
                                               sentence    n/ere is  liltle 'r
                                                                  i~'linle  transparency
                                                                               ollSpureliCY ininfO
                                                                                                 to
how   funds being allotted
howJunds                          RMIBP (0 other bureaus
                    alloned by RM/BP                                       used.. ..., Thi
                                                     burealls are being used           Thiss ma
                                                                                             mayy
have been intended to highlight concems raised by CA re garding
havc                                                                                   bureaus '
                                                                   ga rding other bureaus'
use ofMRV
usc  of MRV funds
                fund s., but the wording is s till objcctionable.   Suchh an assertion is nOI
                                                   objectionable. Suc                          not
supported
 upportcd by the factfactss presented
                            presented,, and is beyond the stale
                                                             tatedd scope
                                                                    seope of this repon.
                                                                                       report. The
OIG team ad vised RMlBP
OlG                     RM/BP that its allotment proce
                                                     process
                                                          ss was 'out of scope
                                                                            scope'' for this
report, and they th
report.            therefore            request further docurnentation
                      erefore did not requcst            documentation of those
allo tments.
 llotmenl.<;.

"
I'u~ge
    gc 13
       13,, Fifth paragraph , first se ntence;: " In FY 20
                                    sentence               11 , CA revamped the budget
                                                        2011,
review process by beginning to hold " hearings,"
                                             hcarings," in which bureaus and CA onices
                                                                                  ofliccs
            CA 's Comptro
met with CA's              ller to justify
                  Comptroller       justifY the bureaus' and CA 's border se
                                                                           security·re latcd
                                                                             curity-related
        requests."."
budget requests

Response
Res po nse : Reques
               equestt clarirying language nOling
                       clarifying           noting that
                                                   lhat BP
                                                        UP was exp  licitly exclude
                                                                 explicitly excludedd
from the
      thesse budget hearings by CA, dedesp ite requests to attend
                                        spite              allend by BP and sosome
                                                                                me of
the participatin
    participatingg bureau s.
                   bureaus.

Page
P:lgC 1414,, Last paragraph:
                   paragraph : "Although the D  Department was ob         taini ng s uffi
                                                                       obtllining       ffi cient funds
rrom
from con    sular fee collections to cover 1I10st
        consular                              most current fund     ing reque
                                                               funding            sts, the
                                                                          requests,
Department
Departm ent did as     k CA to use th e border security
                     ask                          securi ty funds to cover a number of
        onull costs. For in stance, within the next
add iti ona                                       ncxt 2 years,
                                                          yt;:ars, CA has been asked to fund
the salaries of all consular s taff atal overseas posts using Bord er Security Pr             ogram
                                                                                           Program
funds         addifioll, CA hus
funds.. Inn addition,        has funded some limit    ed requests from tb
                                                 limited                      thee Bureau
                                                                                    Burctlll of
Ove  rseas Buildings Ope
Overseas                     ration
                         Operat  ions for renovations to t he consular
                                                                 cOllsular sectio
                                                                             scctio ns in certa     in
                                                                                              certain
countrie
countriess that have a high demand for visas. CA is concerned that these request              eque stss
may expand u ntil it is expected to fund all costs related to consular activities.
may                                                                                 activities, even
indirect costs for which the Department receives app
indirect                                                   approp
                                                                roprri ated fund
                                                                             fundss.. Because CA
is facing
   faci ng increasing demands on its resources and the Department cannot predic              predictt
w hen ththee amount of fund
                          fundss from fcc
                                       ICc collec tions
                                           collecti ons may decrea
                                                                decreasese because of aa drop in




                                            55

                                       UNCLASSIFIED

                                           UNCLASSIFIED





                                              UNCLASSIFIED
                                                      -3-

overseas demand for visas to travel to the United States, the
                                                            thc Department needs to
make long-te
mnke  long-Icnn
             nn plans on how to prior  itize border secu
                                  prioritize        security-related
                                                         rity-related needs. The
budgetary environment shou
                        should                 opportunity tor
                             ld be seen as an opponunity     for the Departm  ent to
                                                                       Department
perform p lanning to ma
                     maximize       impactt of every dollar spen
                        xim ize the impac                          t."
                                                             s ~nl."


Res po nse: RM / BP recognizes thm     that this paragraph is based
                                                              bnsed on inpu inputt from
interviews. but notes that it provides a very incomp
interviews,                                         incomplete   picture
                                                            lete pi cture of how DSP costs,
revenue, anandd spen
                 spending             -rellated. Th
                      ding are inter-re          Thee "additiona l costs"
                                                                    COSts" cited are incurred
on behalf of th e Border SecuSecurity
                                   rity Program by other Departmental
                                                            Depanmental bureaus and         nnd
oflices.
onices. CA took such cos     ostts into account when es establishin
                                                          tabli shi ngg cons
                                                                        consular
                                                                              ular fee
                                                                                    fcess rates
                                                                                            niles for
FY2012. Acco rd ingl     y, the re
                     ingly,         coupment of such costs from cur
                                  recoupment                               rent and future
                                                                       current         fut ure
collections
collec tions is consistent wiwith   stannding Federal
                                 th sta        Fedcral practice for achiev
                                                                      achievinging 'full
                                                                                    'flil l cost
recovery' from     offsetti ng fee collections. RM
            from offsetting                        RM// BP recogni
                                                           recognize zess that fee rerevenues
                                                                                        venues are
  ubject to both annual increases and decreases, as det er
s ubjcctto                                                       mined by wo
                                                              ermined          workload,
                                                                                   rkload, but
believes suc
          suchh variability is taken into consideration whcn when calculating
                                                                     calcu lating fcc ratesrales and
projecting future
             fu turc spending.

Pa ge 18
Pal!c   I R,, Second paragraph, beginning with the second sentence "Based
                                                                        " Based on the
number of fee      -fu nded direct-hire American full-t
                fee-funded                              ime-equivalent employees llmt
                                                 full-time-equivalent                 that
perform co nsul      ar work, both overseas and domestically, RM
                nsu lar                                            /BP culcu
                                                               RM/BP    calculalated
                                                                                 ted t he
tota
 otall cost of payroll (which included salary and most benefi
                                                            benefits)
                                                                  ts) using a derived
median average earned rate along with a benefit computatio
                                                       computationn for thc
                                                                         the population of
CA full-time-equivalent
      ful l.t ime-equivalclll employees. Once CA agreed
                                                     agrced to the amount, thethc funds
                                                                                    unds
were
wcre transferred quarterly from the Border Security Program to the centralized
                                                                            centrali7..ed
American salaries account. Although the money transferred to the sa la          ries acco
                                                                              laries accountunt
was used to fund personnel costs, GIG   010 could not ensure that all of the fund
                                                                               fu nds
transferred to the
translerred        thc central payroll fund were
                                            werc used for border s ecurity-related
                                                                   ecuri ty-related
posi  tions because the money was commingled with other payro l l-relaled
positions                                                                          fun ds.""
                                                                       l-related funds.

R esp
   es po n se
            se:: R Ml BP disagrees with the reports charactcri7.ation
                                                              characterization of current practice
as "c  o m  mingling
     "co mingling,"     ,"  and  reque  sts  Ihe
                                  requests the  _ removal   of the " commingling" langua
                                                               the                        languagege
throughout.
throughout.       RM   's  current   pnlcticc
                           current practice      for ' reimbursin   g' fcc  collec
                                                       reimbursing' fee collection  tion s into the    central
S<l !aries "ccoum
sa!arit:s   acco ull! is fully
                           full y consistent
                                  consistelll with accepted Federal
                                                                 Fedcral practice for   lOr offse tttting
                                                                                                      ing
coll ecction
colle    tions,
              s. as outlined in GAO  OAO Princ iples of Fedenll
                                                             Fedcral Appropriations Law (3n.l      (3ft! cd .•..
vo l. I)
       I). Retained
               etained cons
                         consuular feefeess are ordinaril
                                                ordinari ly c redited
                                                              reditcd to lh thee Diplomati
                                                                                 Diplomaticc and
Cons
Co      ular Prog
     nsular     rogram s (D&CP) appropriation,
                                        appropriation, which
                                                           wh ich funds
                                                                   fllnd s the s alary
                                                                                   lary and benefit
                                                                                              bene fi t
costs for thc large majorit
                          majority  y Departm
                                       Dcpanment  ent personnel
                                                       pcr.;onnel,. including all co     nsular
                                                                                      cons  ular staff
                                                                                                  tafT.. As
      010 team advised RM that
the OIG                               thaI payroll practices and procedures
                                                                       procL-dures were outside the
scope of o f this report.
                   eport , the audit did not rev iew this   this matter
                                                                 mattcr in suf    ficient delail
                                                                              sufficient    detail to make




                                                56

                                           UNCLASSIFIED

                                      UNCLASSIFIED





                                           UNCI,i\SSIFlED
                                           UNCLASSIFIED
                                                 ·4·
                                                 -4-

ssuch
  uch an assertion.
         asse.rtion, Had the O IG requested,
                                       requested , RM/BP would have provided further
 information on the metmethodology      used to 'charge' consular
                            hodology lIsed                                        cost~
                                                                 consu lar salary cos ts to SSP
offsetting co
           collect
              llect io
                    ions,
                       ns, validat
                           validating
                                   ing that all fec collection used to fund cen      central
                                                                                         tral sa
                                                                                              salaries
                                                                                                 laries
were ass ociated w ith border security positions.
      associated                            posi tions, Once suc     suchh collections
                                                                           collect ions are c redited
                                                                                               redi ted
to              ~alary account within D&
to the central salary                     D&CP C P,, it ii.~e; reasonable and w itithin
                                                                                    hin accepted
Federal practice to consolid
                       consolidate
                                ate them with regu la r appropriation
                                                                 appropriationss for disbursement
via payroll.
    pay roll.




                                           57

                                      UNCLASSIFIED

                                UNCLASSIFIED





Major Contributors to This Report

Gayle Voshell, Director
Financial Management Division
Office of Audits

Mary P. Siatis, Audit Manager
Financial Management Division
Office of Audits

Karen Crue, Auditor
Financial Management Division
Office of Audits

Carol E. Hare, Auditor
Financial Management Division
Office of Audits

Stephanie A. Hwang, Auditor
Financial Management Division
Office of Audits




                                     58
                                UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

